<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE CENSUS BUREAU'S ADVERTISING CAMPAIGN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE CENSUS BUREAU'S ADVERTISING 
                                CAMPAIGN

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 1999

                               __________

                           Serial No. 106-65

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
61-550 CC                   WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas W. Brierton, Staff Director
              Lara Chamberlain, Professional Staff Member
               Esther Skelley, Professional Staff Member
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 1999....................................     1
Statement of:
    Dukes, Terry, EVP, account managing director, Young and 
      Rubicam, New York; and Samuel J. Chisholm, chairman and 
      CEO, the Chisholm-Mingo Group, Inc.........................    40
    Prewitt, Kenneth J., Director, Bureau of the Census..........    15
    Zunigha, Curtis, Census Advisory Committee on the American 
      Indian and Alaska Native Populations.......................    68
Letters, statements, et cetera, submitted for the record by:
    Chisholm, Samuel J., chairman and CEO, the Chisholm-Mingo 
      Group, Inc., prepared statement of.........................    52
    Dukes, Terry, EVP, account managing director, Young and 
      Rubicam, New York, prepared statement of...................    45
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     8
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     4
    Prewitt, Kenneth J., Director, Bureau of the Census, prepared 
      statement of...............................................    22
    Zunigha, Curtis, Census Advisory Committee on the American 
      Indian and Alaska Native Populations, prepared statement of    73


OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE CENSUS BUREAU'S ADVERTISING 
                                CAMPAIGN

                              ----------                              


                         TUESDAY, JULY 27, 1999

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:13 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Ryan, Maloney, Davis of 
Illinois, and Ford.
    Staff present: Jennifer Safavian, chief counsel; Chip 
Walker, communications director; Jo Powers, assistant press 
secretary; Timothy Maney, chief investigator; Lara Chamberlain 
and Esther Skelley, professional staff members; Erin Yeatman, 
press secretary; David McMillen and Mark Stephenson, minority 
professional staff members; and Jean Gosa, minority staff 
assistant.
    Mr. Miller. Good morning. The subcommittee will come to 
order and we will proceed. Mrs. Maloney is on her way. We will 
proceed with opening statements, and then we will proceed with 
Dr. Prewitt.
    I think today may be a first, the first time the 
Subcommittee on the Census has had a hearing to focus solely on 
advertising for the upcoming census, for this will be the first 
census in which the Census Bureau will use paid advertising to 
let America know the importance of being counted. I am excited 
about this campaign and fully support it. In fact, I introduced 
legislation which would have added $300 million to the 
advertising and outreach budget. The Census Bureau has expanded 
the advertising program but they have told me that the full 
$300 million was not needed. Therefore, in fiscal 2000 the 
Census Bureau received nearly $200 million for advertising 
promotion and outreach.
    Although I am a strong proponent of the advertising and 
outreach campaigns, I am also a strong proponent of vigilant 
oversight by Congress. Unfortunately, this subcommittee has 
experienced some difficulty in getting some information about 
the exact expenditures by the Bureau on their advertising and 
outreach programs.
    Dr. Prewitt, I am sure you are prepared to answer questions 
related to the advertising budget. From reviewing your opening 
statement, it looks like there is some confusion. I understand 
the allocation for the Bureau to be used for marketing 
communication and partnerships is $199.5 million. But in your 
opening statement you listed $111 million.
    Additionally, I would like to know, for example, how much 
is being paid to Young and Rubicam and how much is being paid 
to the subcontractors. These are tax dollars and the American 
people have a right to know. As everyone on this subcommittee 
agrees, we must do everything possible to promote awareness in 
the census and the importance of being counted. I am a firm 
believer in advertising. I have been told that in 1998 there 
was an estimated $200 billion spent on advertising in the 
United States. If you have a product and you want someone to 
buy it, you advertise. Those products can be tangible like cars 
or intangible like the political ideas the members of this 
subcommittee sell through their own political ads.
    Let me, for a minute, touch on the basic civic nature of 
the census. I know Dr. Prewitt agrees, as I do, that ideally 
people should participate in the census not for the Federal 
dollars that it may or may not bring to their communities. We 
now know from the General Accounting Office that is a small 
amount, less than 1 percent of Federal dollars are actually 
tied to the census figures. We hope most people would 
participate because the Founding Fathers determined that the 
distribution of political power among the States would be 
determined by ``an actual enumeration shall be made within 3 
years after the first meeting of the Congress of the United 
States and within every subsequent term of 10 years in such 
manner as they shall direct by law.'' This is what we know 
today as the decennial census.
    Unfortunately, it has now become necessary to convince 
people not only to participate in the census but also to simply 
vote on election day. As a public servant, this loss of civic 
responsibility disturbs me greatly. Yet, as greatly as I bemoan 
the loss of civic responsibility, being a politician I 
understand political realities. I know that Young and Rubicam 
have conducted focus groups to determine just how we can 
motivate people to participate in the census and that the 
Constitution and civic responsibility rate on the bottom of the 
list in motivating many people to participate.
    I would be curious to hear more about this disturbing trend 
from our panelists and if there is anything we can do to 
promote the civic importance of the census, rather than the 
financial gain.
    I am also particularly interested in how the ad campaign 
will be targeted to the hardest to count in our Nation. After 
all, we need to reach the hardest to count if we are to have a 
more accurate census than 1990. I know, for example, that some 
ads developed for the dress rehearsal on the Menominee 
Reservation fell well short of their mark, so much so that the 
ads were offensive to the very group they were intended to 
motivate. I am interested in what was learned from these 
mistakes and what other things you were able to learn from the 
three dress rehearsal sites. I would think that had there been 
more community involvement, these problems could have been 
avoided. I hope today that we will hear how local communities 
have been involved in the development of the advertising 
strategy. Along these same lines, I understand that the Census 
Bureau is paying media specialists in each of the regional 
offices. How does the relationship between the media 
specialists and Y&R work? I am also interested in the campaign 
to reach those in rural areas of the Nation who provide their 
own unique enumeration challenges.
    Additionally, at today's hearing I would like to focus on 
how Y&R intends to localize its ad campaign. We all know and 
have discussed many times before the importance of localizing 
the census. Whether it is hiring local residents to help count 
their communities or community-based advertising, if the Bureau 
is not successful in its local outreach, the census will not be 
successful.
    I look forward to hearing more from our guests today as we 
explore the multimillion dollar ad campaign, ``Census 2000: 
This is your future, don't leave it blank.'' And now I 
recognize the ranking member, Mrs. Maloney.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED]61550.001
    
    [GRAPHIC] [TIFF OMITTED]61550.002
    
    Mrs. Maloney. I want to thank the chairman for calling this 
hearing and tell him how much I have enjoyed working with him. 
We have often disagreed on a lot of the merits but it has been 
a pleasure working with him on this and many other issues. I 
did want to share with him that the Census Monitoring Board had 
a meeting in New York City at Young and Rubicam where they went 
over the entire ad campaign, and I was fortunate to be there 
and to see it. It was very, very encouraging. The 
subcontractors also spoke and put forward their presentations. 
I know that Young and Rubicam did an award-winning series on 
making people aware of abused women that I remember to this 
day. It was a magnificent work of talent and commitment. I hope 
we will see the same and I believe we will in the ad campaign 
that they have put together.
    The ad campaign is a tremendous concern to many Members in 
my party. They were concerned that it might not be sensitive in 
a foreign language to the feelings of the people or to the 
Indian reservations, but what I saw was just really inspiring 
and I thought it was just terrific and I know we will hear more 
about it today.
    I have long remarks, as usual, but I am going to just put 
them in the record. But I do want to say that we were concerned 
when the mail response dropped. It fell from 75 percent in 1980 
to 65 in 1990 and it is expected to drop to 60 percent in 2000. 
So, we clearly have a problem, and this is one of the main 
reasons that the decision was made to mount a very aggressive 
paid advertising campaign for the 2000 census to increase this 
projected response rate above the 61 percent level. And it is a 
significant departure from the past and a very significant 
dedication of resources. Well over $100 million will be spent 
on advertising. That includes TV, radio, print, outdoor, and I 
look forward to hearing more about it.
    Let me say at this point, Mr. Chairman, that I am pleased 
that you called today's hearing and there are a number of other 
issues on which the subcommittee could have hearings and I hope 
they also would be addressed. You and your staff had 20 private 
briefings with Bureau personnel and made a total of 100--I have 
them right here--125 separate requests for information that I 
have in my hand, and I think the public has a right to know 
about the status of the decennial census and an open hearing on 
that issue should be held as another way to provide this 
information to the public. Given the differing opinions on the 
census operations from within the committee, it would be best 
to have a full public hearing on all preparations for the 
census so that the American public can hear the facts and 
decide for itself how the census is coming.
    For example, the results of conducted census dress 
rehearsals have been in for some time, yet we have never held a 
hearing on them. What was learned from these rehearsals and how 
has the Bureau adjusted its plans from the findings of the 
rehearsals? We should also have a broader hearing on how the 
Census Bureau is progressing toward meeting the milestones for 
the 2000 census. We should give the Bureau Director a public 
opportunity to keep the Congress informed as we count down to 
census day, which is only 249 days away.
    I also want to really commend in all sincerity the chairman 
and the House leadership on the markup last week of the 
Commerce-Justice-State spending bill in the subcommittee. The 
majority accepted the consequences for its lawsuit against the 
abuse of modern scientific methods by providing the funding 
needed to conduct the census with an outdated method. Although 
I think it is rather strange or odd to call the entire census 
an emergency that was, ``unanticipated spending,'' I am sure 
the Director is happy as well as Members of Congress, all of us 
who care about getting the money to conduct the census. We 
don't care whether it is labeled emergency or not, most of us. 
We really need to get the money so we can get the ad campaign 
out there and get all the pieces in place to make the census 
happen. But we really cannot celebrate. The House funding bill 
has a very long way to go before it passes, and the Senate 
version of the Commerce-Justice-State bill also passed last 
week without the $1.7 billion required by the Republican 
lawsuit. Because it has a long way to go, I am very concerned 
about how the uncertainty in funding is impacting census 
preparations and hope to ask the Director his feelings about 
it. Nevertheless, the start in the House is very, very 
encouraging and I thank the chairman for his leadership.
    The error rate, as we all know, was over 10 percent; 26 
million people were miscounted. There were 8.4 million people 
missed, 4.4 million people counted twice, and 13 million people 
were counted in the wrong place. To make matters worse, the 
people missed and the people counted twice were very different. 
The people missed were disproportionately minorities, American 
Indians, Hispanics, African Americans, and Asians, as well as 
the urban rural and poor.
    I tell you the people counted twice tended to be fortunate 
enough to have two homes, to be affluent, to live in the 
suburbs. The majority won its apportionment case in the courts 
and as a result, the census is going to cost an extra $1.7 
billion. Yet even after spending an extra $1.7 billion and even 
after increased efforts are made to count people using means 
like this advertising campaign that we are discussing today, 
there is one inescapable fact that there will still be a large 
undercount if modern scientific methods are not used. Luckily, 
we will be getting a much more accurate count for all purposes, 
although an apportionment such as redistricting of 
congressional seats and State legislative seats and the 
distribution of Federal funds since the Supreme Court's 
decision allowed the use of modern scientific methods for these 
purposes.
    Believe it or not, that was the abbreviated form of my 
opening statement. I always have a lot to say about the census, 
but I always like to hear from the Director and I feel that 
this ad campaign is particularly challenging to motivate the 
people to want to be counted, to be part of the census that is 
coming to us.
    Thank you for calling this, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED]61550.003

[GRAPHIC] [TIFF OMITTED]61550.004

[GRAPHIC] [TIFF OMITTED]61550.005

[GRAPHIC] [TIFF OMITTED]61550.006

[GRAPHIC] [TIFF OMITTED]61550.007

[GRAPHIC] [TIFF OMITTED]61550.008

    Mr. Miller. Mr. Ryan.
    Mr. Ryan. I, too, want to thank you for coming today, Dr. 
Prewitt. We had a field hearing in my home district, Racine, 
WI, on the census, in which the ranking member and the chairman 
came to testify, and what we discussed among many other things 
was the fact that in southeastern Wisconsin, I represent a 
large, growing constituency of Hispanic Americans. I have been 
meeting with a lot of leaders in the Hispanic community to talk 
about the census and other things. There is a bit of a fear. 
There is some trepidation out there about the participation in 
the census. What we have learned from talking to a lot of 
leaders in the community, from African-American communities as 
well from my area, is that we have to find a good creative way 
to address the concerns of the census that people will have 
when asked to participate in the census.
    So, I am very interested in hearing your remarks on Young 
and Rubicam's strategy for addressing these concerns, 
especially with Hispanic Americans, to make sure that we get 
full participation as much as possible with that. That is 
something that I think is vital to ensuring a successful 
census, so I hope we can have some good discussion on that.
    Also, I want to share my colleague's concerns or her 
mention of the fact that this has now become an emergency. 
Personally, I don't think we should have done the emergency 
designation. I think that is wrong. It is bad budgeting in my 
opinion. I serve on the Budget Committee and work on these 
issues but I do know that we have to do this. I am a big 
supporter of making sure we have the $1.7 billion from the 
lawsuit, but I would be interested in your concerns and your 
reaction to the fact that this last week was now designated as 
emergency spending. That is something I would also like to hear 
your reaction toward, and I look forward to hearing the further 
panel testimony.
    With that, I yield back the balance of my time.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
And I want to thank you, first of all, for convening this 
hearing today to examine issues regarding the Census Bureau's 
advertising campaign. I think this is a timely hearing because 
we are about to undertake an enormous challenge of getting the 
most accurate census that we can.
    I have always supported the goal of advertising as a way to 
increase participation rates in the 2000 census, for we know 
that advertising has proven to be an invaluable educational 
tool to reach people when used properly and appropriately. The 
examples by Philip Morris and Nike are all too familiar. Their 
ability to flood markets and draw in potential customers 
through advertising has been unmatched. In 1990, we relied 
solely on pro bono public service advertising, which failed to 
reach many people. One of the lessons learned from 1990 is that 
we have to invest money into where we want to get the returns 
from. I am pleased to work with all of my colleagues in making 
that investment real. While the investment in advertising must 
be significant, the overriding goal must be to count every 
American citizen. Unfortunately, the approaches used by some 
advertising firms, especially those that may not have the 
expertise, the experience and the understanding of certain 
cultural nuances of different communities and different 
population groups, may not be sufficient for reaching 
communities uptown.
    For example, in the last census for the city of Chicago, 
the undercount was 2.4 percent. The undercount, though, for 
African Americans was estimated at between 5 and 6 percent. In 
short, jingle bells may be effective uptown but may not reach a 
soul on the West Side of Chicago. Therefore, our approach in 
tactics becomes critical.
    I am pleased that the Census Bureau has committed 28 
percent of the total advertising budget for small disadvantaged 
firms. However, the key remains to ensure that those small 
disadvantaged firms have a history and a record of being able 
to reach those hard to count, hard to reach populations. I 
recount my own experiences of having worked in communities for 
years. Oftentimes, people who were getting the money to come to 
reach the people came to me to ask me how to reach the people 
that they were being paid to reach. I mean, I have trained so 
many people over the years who were getting fat until it 
becomes humorous at times, when you think about it, because I 
am from so and so and so and I am out to do a community 
outreach program. Can you tell me how to do it? Well, I mean, 
why are you getting paid to do it and not me if I am the one 
who knows how to do it.
    So, I simply want to make sure, Mr. Chairman, and Mr. 
Director, that the firms that we employ in this advertising are 
actually people who know something about the communities and 
the people that they are trying to reach. And I don't want to 
see it just glossed over. I don't want to see the same people 
who don't really know what they are doing with these markets 
end up with the resources that when the deal goes down, we 
still end up with a big undercount.
    With that said, I thank you, Mr. Chairman. I look forward 
to what you have got to tell us, Mr. Director, and the rest of 
those who will testify. Thank you very much.
    Mr. Miller. If it is a single vote, let's go over and vote 
real quick and come right back and proceed. We would all like 
to hear. Sometimes in the hearing you can keep it going. If you 
don't know, we will take 10, 15 minutes, whatever it takes to 
go over and vote and come back. We will stand in recess till 
then.
    [Recess.]
    Mr. Miller. Now I am sure there will be no more votes for 
the rest of this hearing. We have got our one vote out of the 
way and we can proceed without interruption. As other Members 
are coming back, they said it would be OK to proceed. So, if 
you would like to proceed with the opening statement.
    [Witness sworn.]

STATEMENT OF KENNETH J. PREWITT, DIRECTOR, BUREAU OF THE CENSUS

    Dr. Prewitt. Thank you. Thank you, Mr. Chairman. Mrs. 
Maloney, Mr. Ryan, Mr. Davis when he returns, we appreciate 
this opportunity to appear before you today to discuss issues 
related to the paid advertising campaign. I would also like to 
sort of do something slightly unusual. As I look around the 
room, this is the first time I appear before your committee, 
Mr. Chairman, when Mr. Hofeller was not here. I miss him.
    Mr. Miller. I will tell him.
    Dr. Prewitt. Thank you very much. Since I last testified 
before you on June 9, census operations have kicked into full 
gear and they are progressing very well and on schedule. Over 
180 million questionnaires have already been printed, 
representing over half of the total volume. 130 local offices 
are open, space has been leased for an additional 380 and the 
remaining 10 will be leased later this summer. By the end of 
this week, we will begin processing and formatting the address 
tape for use in labelling questionnaires. We have issued 32 
dress rehearsal evaluations, approximately 22,000 partnerships, 
and have about 255 TV, print, radio billboard ads and so forth 
now in production, as obviously will be discussed later today.
    In your invitation letter, Mr. Chairman, you asked that I 
address the process by which we awarded the advertising 
contract to Young and Rubicam, the coordination between the 
partnership groups and the advertising campaign and the 
advertising budget breakdown, and I will address these topics 
in that order. First, the process for awarding the contract. 
Census 2000 is the first census for which the Bureau has used 
paid advertising. From 1950 to 1990, we worked with the 
Advertising Council of America to design and disseminate public 
service announcements. Based on their own evaluation of the 
1990 census advertising, the PSAs did not reach the hard to 
count populations in a strategic or effective manner. Ads often 
ran at offpeak hours because the decision, of course, rested 
with the local television and radio stations. Based upon this 
evaluation, the Census Bureau concluded that to reach the right 
people with the right message at the right time, it would be 
necessary to contract for a paid advertising campaign. Once 
this decision was made, we studied the advertising contracts 
issued by various other Federal agencies, including those to 
the Armed Forces, the U.S. Postal Service, the Treasury 
Department, and so forth, and we consulted widely with 
professionals in the advertising industry and, of course, 
within our own Bureau and with the Commerce Department. We 
brought in experts from the U.S. Armed Forces Joint Recruitment 
Advertising Program and the advertising firm of J. Walter 
Thompson. We then established a source selection procedure, 
including, of course, the designation of a source selection 
official, who was the Bureau's principal Associate Director for 
programs. And we went through the numerous steps to ensure a 
fair and open competition.
    Many of these steps went beyond the normal Federal contract 
requirements. These included publishing the draft statement of 
work and holding a presolicitation conference. We issued the 
request for proposals using input from industry and response to 
our draft statement of work. Proposals were due in late June 
1997. We received 11 proposals and my written testimony details 
the chronology of events that took place during this period. To 
ensure that the best proposal was selected, we also consulted 
with the Census Bureau's racial and ethnic advisory committee 
and others to identify a diverse group of 11 advisors with 
expertise in government contracting, advertising and outreach 
to minority audiences. The advisors attended all oral 
presentations and briefed the technical evaluation team. That 
process reduced our candidates from 11 to 4. We then invited 
the four candidates to make oral presentations, which they did 
approximately 2 years ago late August 1997 in a quite extensive 
process. Based upon those oral presentations, we scored the 
performance based upon the criteria in the RFP and the 
technical evaluation. Y&R, Young and Rubicam, received the 
highest technical score, which was significantly above the 
other competitors.
    After that, there were additional impact, risk, legal and 
administrative reviews, indeed one in particular that I'd like 
to mention because it does go to the question that Congressman 
Davis has put on the table, which is the special attention to 
working with the Office of Small and Disadvantaged Business 
Utilization. They found that Y&R had the most aggressive plan 
for subcontracting to small, small and disadvantaged and women-
owned firms. We hoped that the creative work, advertising space 
or time supplied by these firms will improve the mail response 
in communities with historically low mail response rates. Y&R's 
plan far exceeded the mandatory requirements for subcontracting 
set in the RFP. Indeed, our own goal was higher than the 
Federal obligation. Y&R's response to the RFP then set a yet 
higher goal than we had set and I think you will hear later 
today that they've now exceeded their own goal. So we're well, 
well above the marker that we had established for ourselves 
with respect to contract subcontracting to the small, small and 
disadvantaged, and women's firms.
    In late September 1997, the source selection officials 
selected Y&R and the award was made on October 10, 1997. We 
believe the award process was a great success. It employed 
innovative methods, was completed ahead of schedule, and there 
were no protests. Success can also be measured by the fact that 
Y&R and its partners, the Bravo Group, G&G Advertising, Kang & 
Lee, and the Chisholm-Mingo Group and Y&R Puerto Rico have, we 
believe, developed an excellent campaign. You'll find in my 
written testimony further chronology of these events.
    The second question, Mr. Chairman, you addressed to me in 
your letter of invitation to appear before you today has to do 
with the coordination between the partnership groups and the 
advertising campaign. This is an important issue because paid 
advertising is just one piece of the Bureau's integrated 
marketing strategy for census 2000. In addition to the paid 
advertising campaign, the other pieces of the integrated 
marketing strategy include partnerships, the direct mail 
package, media services, promotions, and special events. Each 
of these pieces has its own strengths and by working in concert 
will reach, and we hope motivate, everyone to participate in 
census 2000.
    Partnership is the most important of these other pieces. 
The Census Bureau is forming partnerships with other Federal 
agencies, State, local, and tribal governments, community-based 
organizations, religious organizations, and businesses to draw 
on the unique knowledge, experience, and expertise of these 
partners. Most of the partnerships are being coordinated out of 
the regional offices. There we have 400 of our 642 partnership 
positions, including specialists, partnership coordinators, and 
support staff to manage these relationships. And of course 
these partnership specialists will eventually be assigned to 
our local offices. We plan to complete hiring by the end of the 
summer. We have already formed approximately 22,000 partnership 
agreements, as I have mentioned, with State, local, and tribal 
governments, businesses, national and community-based 
organizations. You specifically asked about coordination 
between the advertising and partnership program.
    First, we are retaining the contributions of the advice of 
our regional office staff. Y&R has visited each of the 12 
regions and met three times with regional directors, and one of 
the regional directors has been part of the approval process 
for creative materials from the very beginning. We maintain 
active communication between the regional staff by informing 
them of the goals, schedule and content of the advertising 
campaign through briefings, newsletters, Internet, videos and 
delivery of the advertising campaign materials. We have also 
asked the regional offices to identify critical media in their 
area by having them compile a list of all media outlets for 
hard to enumerate populations and asking them to list, in 
priority order, specific outlets that can be purchased.
    Fourth, we will provide to all regions for use in the 
partnership program a tool kit of creative materials, many of 
which derive from the advertising program. These include logos, 
tag lines, graphics, drop in articles, fax sheets, CD-roms 
containing pictures of persons from all walks of life and races 
and ethnic groups, hand bills, posters, television and radio 
scripts, informational videos and so on.
    I stress that this is quite important. I was in Oklahoma 
last week meeting with a publisher of an Oklahoma Indian 
newspaper that reached all 39 of the Oklahoma-based tribes. He 
reported to me that his newspapers had a major article on the 
census each month and I said, ``That's really very impressive. 
Who's writing those for you?'' And I was somewhat embarrassed 
to learn he said, ``Well, your own staff of course,'' which is 
to say he is simply taking our drop-in media articles and 
putting them into his news outlets. That's happening all over 
the country. That's independent of the paid advertising, so we 
have two separate media campaigns, the one that we're managing 
ourselves with the regional and local offices and, of course, 
the paid advertising campaign of Y&R.
    Finally, I would like to say that Y&R, in negotiating media 
buys, will obtain value, added value opportunities, some of 
which will be used in our grass roots promotion and 
partnerships. These may include promotional tie-ins with local 
events and festivals, local news coverage, television, radio or 
print interviews with census representatives, local concert 
appearances and remote disc jockey appearances. All such 
activities would be available to the regions and under their 
control for the use in the partnership program.
    You also asked me, Mr. Chairman, to address the advertising 
budget breakdown. Let me say as I move into that part of this 
testimony, I apologize if there's been some confusion, as your 
opening comment referenced. I fail to see confusion because 
your letter specifically asked me to address the advertising 
budget breakdown. The advertising breakdown is the $111. The 
$199 is the advertis- ing, plus promotion and partnership. So 
I'd be happy to talk about anything you want me to--but at 
least in your letter that I am now trying to respond to, you 
ask only about the advertising budget. So, I don't see any 
confusion at all between what I put into my written testimony 
and your reference.
    The overall paid advertising budget under our current 
working plan is $166 million. Of this amount, $8.4 million was 
spent in fiscal year 1998. $47.2 million is budgeted for this 
fiscal year and the President is requesting $111 million for 
fiscal year 2000. Of the $166.6, we expect that approximately 
64 percent, or over $160 million, will be devoted to media 
buys; that is, to pay for television, radio, and print slots. 
Four-fifths of the media buys will occur in fiscal year 2000. 
We must be in a position to begin making these buys on October 
1.
    Mr. Chairman, you're obviously a professor of marketing. 
You know better than I that there are critical moments when you 
can get into media markets. We hope to launch our fall 
awareness campaign in November and in order to be in the 
November market, we have to purchase on October 1. Major long-
term advertisers will have already bought a significant portion 
of the fixed media inventory, so we're competing within what is 
the residual, that is, what is left over from what the long-
term buys have already purchased. Short-term advertisers can 
only begin buying the remaining inventory at the beginning of 
each month. We will be competing against many other purchasers. 
If we cannot begin buying on October 1, we will not be able to 
purchase the slots we need to get the right message to the 
right people at the right time. Any delay in fiscal year 2000 
funding would have a serious negative impact on our advertising 
campaign. Ironically, it could return us to the 1990 situation 
when we could not control the timing of TV and radio spots. So, 
we will have invested an enormous amount in a paid advertising 
campaign, which then will end up in off hours because we could 
not purchase on the schedule that we have set out for 
ourselves.
    As Y&R will testify later, we intend to spend $71 million 
of our advertising budget in the single month of October and 
day one and day two are very important in terms of those media 
buys.
    I have said that 64 percent of our advertising budget is 
media buys. The rest breaks down as follows. Labor 16\1/2\ 
percent, production 14\1/2\ percent, research, creative, and 
miscellaneous operating expenses just under 5 percent.
    Mr. Chairman, I have tried to rush through my prepared 
testimony in response to the three questions that you put to me 
in your invitational letter of July 16. May I just add to that 
that your opening statement addresses quite different kinds of 
questions. I am very interested in those questions, as you 
know, the issue of civic disengagement, decline in civic 
participation, Mr. Ryan question's about the Hispanic 
population, the problem of confidentiality, the problem of our 
language program. These take us beyond the invitation letter 
itself, but I leave it to you if you'd rather me take another 4 
or 5 minutes to try to address some of the questions that your 
opening comments put on the table.
    Mr. Miller. If you want to address them now, fine.
    Dr. Prewitt. I am taken with them and I would like to. I 
would like to start, if I could, with the one that you 
addressed on the basic civic nature of the census as follows.
    As Congresswoman Maloney mentioned, we have experienced a 
10 percent dropoff in the mail response rate each year since 
1970; 1970 was an 85 percent response rate; 1980 was a 75 
percent; 1990 was a 65 percent. That's awful that the American 
people will not take 10 minutes, which is the average time for 
the household to complete this questionnaire, and do it. When 
we began doing our planning for 2000, our own research 
suggested that response rate could drop as low as 55 percent. 
Now, how do you reverse that kind of civic disengagement? We 
have all kinds of analyses of why that is so, but at root it is 
because a large number of the American population are 
disengaged from all kinds of civic activities. Voter turnout is 
down. Cooperation with INS is down. The purchase of U.S. 
Savings Bonds are down. All of those have been dropping over 
the last three or four decades.
    I believe, as you do, that census 2000 is an opportunity to 
try to create a civic ceremony in the American society that 
pulls us all together. The way to do that, I think, is to focus 
on the response rate decline. So, we intend later this summer, 
and I mentioned this often to your staff and in other kinds of 
public settings, we begin testing this idea. We would like to 
launch a campaign that is focused on the response rate. Now, 
the response rate, by the way, in 1990 was 65 percent in the 
aggregate across the country. That varies widely. We have 
communities where the response rate was 90 percent. Mr. Davis 
was talking about Chicago. The mail response rate in Chicago, I 
believe, was 52 percent in 1990.
    So we have a wide variation. If every community in the 
United States were to increase its response rate by 5 percent, 
that is, from whatever it was in 90 to that plus 5 percent, our 
aggregate response rate would be 70 percent. What that means, 
from the point of view of patriotism and civic responsibility, 
is we will have reversed one of the most critical declines in 
civic engagement in the society.
    Now, we can't budget for that. It would be very imprudent. 
And in 1990, we budgeted for a 70 percent response rate, and by 
April 23rd we had only gotten 62 percent. And we had to come 
back to the U.S. Congress for an emergency supplemental just to 
finish the census in 1990. So, all of our planning is based 
upon the best research we have available, which is a lower 
response rate. A 61 percent response is our targeted response 
rate. I would like to run the census in such a way--I don't 
mean just me personally--we would all like to collectively run 
the census in such a way that the society does not respond to 
that 61 percent response rate, but somehow gets up to the high 
60's or the 70's.
    We are hoping that the Y&R campaign will be a major part of 
that. But it's not the only part. And Y&R itself has done its 
own research on what it can do about the response rate.
    And I will stop at this in a second. Just three or four 
more sentences. The beauty of the response rate as a vehicle 
for talking about civic participation is that it is measurable. 
It's obvious. And it is obvious in and for every community. We 
in real times, starting March 28th, will be able to tell every 
jurisdiction in the United States what their mail response rate 
is on a 24-hour basis at the end of every day. Your response 
rate is now up to 47; it's now up to 52; it's now up to 58, and 
use that as a mechanism to try to create as much excitement as 
we can. Like think of a ticker tape, you know, every day 
reporting the national response rate across the nightly news or 
around the Times Square ticker tape or what have you. If we can 
get the country to focus on the response rate, we might be able 
to turn this into a civic event.
    Now, I say that because that's not the problem that Y&R was 
charged with. Y&R was charged with a different problem.
    Y&R was charged with a task of: We have had a declining 
response rate in particular population groups, and you go out 
and do some research, which we will find out how to motivate. 
They went out and did research and their research said the way 
to motivate people is to say there's something in it for you. 
So, the advertising campaign is based upon that premise. That's 
what their research did, that's what the contract suggested and 
so forth.
    So, as we try to move this now into a different vocabulary, 
a vocabulary of a civic responsibility, of a civic ceremony, it 
will begin to slightly change the message, exactly as your 
opening statement indicates. Let's not make the message only 
about what is in it for you, but let's also make it about what 
is your responsibility for the country.
    I promise you, Mr. Chairman, there will be a lot of 
attention to that message before this census is finished and 
you will begin to see that in September, October. I've been 
meeting with the mayors, meeting with city commissioners and so 
forth exactly on that issue. I just want to protect Y&R. That 
was not the task they were given 2 years ago. They were given a 
different task, and they have to be measured against the task 
that they were given.
    So that would be my first comment in response to your 
comments.
    If I can turn quickly then to Mr. Ryan. Mr. Ryan, you asked 
about the Hispanic issues, not just in Racine but in your own 
area across the country. I think you will hear from Y&R that we 
have a very, very active, of course, Hispanic advertising 
campaign in language. About half of our advertising campaign is 
what we call end language and end culture that's really focused 
upon the hard to count, but this is specifically designed for 
in culture sensitivities and in language advertising and print 
media and so forth.
    In addition, of course, as you know from other hearings, we 
have quite an extensive language program, quite separate from 
the advertising campaign and the questionnaire and the 
telephone assistance guides and so forth, all of which are 
designed. The entire program that we addressed for the 
Hispanics, including Y&R, but also including partnerships, 
promotion and so forth, hits the confidentiality issue straight 
on.
    We simply have to get that population group to believe in 
the confidentiality of the data or we will not get high 
response rates. We are very preoccupied with that question. 
Indeed, if you have the entire Y&R creative in front of you, 
you would see a very disproportionate attention to 
confidentiality in the Hispanic compared to the African 
American and so forth. It's also high in the Asian because they 
are concerned, in some respects, as the Hispanic. So we are 
trying to address these kinds of issues.
    Let me then stop, Mr. Chairman, and ask you--you should 
never have let me go on. There's a lot in my head.
    [The prepared statement of Dr. Prewitt follows:]
    [GRAPHIC] [TIFF OMITTED]61550.009
    
    [GRAPHIC] [TIFF OMITTED]61550.010
    
    [GRAPHIC] [TIFF OMITTED]61550.011
    
    [GRAPHIC] [TIFF OMITTED]61550.012
    
    [GRAPHIC] [TIFF OMITTED]61550.013
    
    [GRAPHIC] [TIFF OMITTED]61550.014
    
    Mr. Miller. Being both former professors, it's a tendency 
to talk as long as you have.
    Dr. Prewitt. Exactly.
    Mr. Miller. Let me clarify a couple of things. Is the $166 
million for the advertising spread out? The current fiscal year 
there's $47.2. What was the original plan, it was $100 million, 
do you remember?
    Dr. Prewitt. The $100 million number comes from the--now, 
I've lost their name, I have it in my testimony. I've forgotten 
it for a moment. We consulted with the firm way back in 1997 to 
do the work on 1990. And that $100 million floated at that 
time. This should be approximately in that area.
    So you're right. We talked about $100 million, but never as 
a budget number, at least not once we were into the real 2000 
planning.
    Mr. Miller. I am glad and I look forward to the next 
panel--that good research will be coming up with the right 
message, that politicians come up the message for civic 
responsibility, but that may not be the one that sells to 
accomplish what our common goals are on this common issue.
    I was pleased about your discussion. I would like to talk 
some more about the integrated marketing strategy. Now, Y&R, 
they are just doing advertising prior to the April 1 date, is 
that right, the $166 million or maybe through the month of 
April?
    Dr. Prewitt. No. We changed after the Supreme Court 
decision which also then led to the increased advertising 
budget. We did two things. One, we put more in consultation 
with Y&R. We put more upfront money in the awareness campaign. 
But we also added a motivation campaign for the nonresponse 
followup period.
    So, they will certainly still be running print and 
advertising, a different kind of message, which is now a 
message that said someone is going to be knocking on your door. 
Don't forget, at 61 percent, a response rate, we're talking 
about $46 million households who have to be tracked down and 
gotten the cooperation of. So we want an advertising campaign 
to focus on that. So that will run into April, May and June.
    Mr. Miller. So they will be having a direct advertising 
campaign for the nonresponse followup?
    Dr. Prewitt. That's correct.
    Mr. Miller. Do you know what the breakdown of that is or 
maybe they can give that.
    Dr. Prewitt. Ask them.
    Mr. Miller. They will have it. OK. When you get into these 
other issues of the logo and direct mail package, how much of 
that is in-house versus Y&R? I mean, the fliers or the 
brochures or posters and that type of thing, will that be done 
in-house or will you be using Y&R, and how do you make sure you 
coordinate the message and everything?
    Dr. Prewitt. There are really three pieces to think of. 
There is a paid advertising campaign to Y&R. There is our own 
media, promotion work partnerships and so forth. Then there is 
a lot of stuff that's just happening. I saw a marvelous video 
the other day of buses in Orlando. They have taken three city 
buses and completely enveloped them in census messages. Now, 
that's something that came out of the Orlando Regional Transit 
Authority, in cooperation with our partnership specialist.
    That's advertising. They're beautiful, they're lovely, 
they're striking. But that doesn't come out of Y&R. That 
doesn't even directly come out of us. That's something that the 
Orlando people want. So you've got to keep in mind that there's 
going to be a huge outpouring of media materials that are 
generated. I met the other day with Henry Cisneros and we were 
talking about, you know, the campaign in Hispanic television, 
and Mr. Cisneros is sitting there telling me about the pro bono 
stuff he is going to put on. He cut his own TV ads for 
Univision and is sharing those with Telemundo.
    So, it's going to be messy at the edges. There's no way 
that we can totally control all of the things. The Census 
Bureau, itself, has media specialists in each one of the 
offices. In each local office, they will be feeding local print 
media, local videos and so forth all of the time to the local 
outlets, which will be separate from Y&R.
    Mr. Miller. Are these newly hired positions just for the 
decennial or----
    Dr. Prewitt. These are decennial positions.
    Mr. Miller. So, these are just for the decennial?
    Dr. Prewitt. Yes.
    Mr. Miller. So, they will be developing marketing 
materials?
    Dr. Prewitt. It's also responding to press inquiries. We 
get lots and lots of press inquiries about the census, of 
course, which are not specifically marketing, it's like the 
drop-in articles. I saw a beautiful video the other day that 
our media people did on confidentiality. And we're shipping 
that to thousands of outlets and hoping they will run a 20- or 
30-second clip on it in their north coverage.
    Mr. Miller. We're going to have more time. We're going to 
go a couple rounds this way. We will just go to Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Dr. Prewitt, I always enjoy your testimony for a number of 
reasons. It's kind of like you're back in the classroom and 
you've got a professor who's really seriously into what he's 
doing. So, I know that you're seriously into your work.
    But you've mentioned, not only today, but on other 
occasions, the importance of having enough money to do the 
work. But you've also talked about the timeliness of having the 
money. How impactful would a delay be in terms of planning for 
the work to be done? I mean, if the money is, say, a month off, 
are you a month late in terms of operationalizing some of the 
planning that you've got to do?
    Dr. Prewitt. Mr. Davis, as a professor, I try not to engage 
in hyperbole and use exaggerated language and so forth. But I 
can tell you a month's delay in money at this stage would 
simply be a disaster for census 2000.
    One example, for the last year we have been on what we 
internally call the road to July. The road to July was getting 
our address label in place. If we don't have our preliminary 
cut on the address label in the next 3 days, the entire 
schedule of the census suffers. We have got to get that address 
label completed to be on our schedule by the end of this week.
    We're on schedule to make that. If you suddenly said to me, 
``Oh, we will wait another month,'' that means we would not 
mail in March of next year. In order to mail in March of next 
year, we've got to do the particular cut of that label tape 
today. The census is full of those kinds of things, where 
everything is on a very, very tight schedule. Slip any one of 
them by 3 or 4 days and the entire process slips 3 or 4 days.
    The money cuts into this as follows: Starting fiscal year 
2000 by October 1st, we then are staffing these 520 local 
offices. You can't tell someone we're not sure when we're going 
to start your payroll: ``We would like to start it on October 
1st, but it may be October 10th, it may be October 21st, we 
will let you know as soon as we can.''
    When you're dealing with temporary employees, they're gone. 
You put them on payroll and then you have to let them go, 
they're gone. You won't get them back. So October is a critical 
month for staffing these local offices. And as I said, it's a 
critical month for the advertising campaign. We're on a ramp-up 
process. You don't get 860,000 employees by next April unless 
you're starting that process now. And we're on that process. 
And we really will suffer if there are serious delays, that's 
all I can say.
    Mr. Davis of Illinois. So the money is critical?
    Dr. Prewitt. The money and the timing, right, right.
    Mr. Davis of Illinois. I've heard it suggested that in the 
1990 undertaking, that PSAs may have had just the opposite 
effect of what was desired. Could you shed a little bit of 
light on that for me?
    Dr. Prewitt. Surely. Surely. That's actually a fascinating 
hypothesis. It was first addressed and mentioned in a National 
Academy report. And the logic is sort of as follows, that if 
you do a reasonably good advertising campaign, increased 
awareness contributes to response rate. Then, if that awareness 
campaign is lumpy in the population groups it hits, then it 
helps some population groups more than other population groups.
    We were at the mercy of the local markets. So, if we had a 
very good advertising campaign, let us say in one city, but a 
poor one in a different city, because the local TV and radio 
people didn't want to use it, then the city where we did not 
have one, if it happened to be a city with a large number of 
African Americans or Hispanics by definition, their awareness 
levels are lower. So, in that sense, an untargeted media 
campaign could actually result in a higher response rate among 
those population groups that already had response rates 
reasonably high. That is a preaching to the choir problem.
    So that's the logic of the 1990 PSAs--it's not that they 
weren't good, they were good, and they created awareness. But 
the awareness was uneven as best we were able to construct 
afterwards.
    Mr. Davis of Illinois. In negotiating the contract with 
Young and Rubicam, how much emphasis was placed on this whole 
question of the hard-to-count population groups at risk?
    Dr. Prewitt. Exclusively; that is, we from the very 
beginning expected the advertising campaign to address that 
problem, which is to say we do not need a heavy advertising 
campaign to get the standard suburban, over-50 homeowner to 
sort of send in a questionnaire. They're going to do it. So why 
waste taxpayer dollars trying to tell them to do something 
they're going to do anyway? So, the entire advertising campaign 
is focused upon the hard-to-count populations. And all of the 
RFP criteria and the evaluation criteria stressed that.
    If I can just add a sentence. Getting the response rate up 
among the hard to count is as important as solving the final 
differential undercount problem. We do not think that we can 
advertise our way out of the differential undercount problem, 
that's the last 3 or 4 percent. We do think we can advertise 
our way into a better, across-the-board response rate, which 
will by definition pull up the response rate of the hard to 
count.
    So, when we talk about hard to count, we include hard to 
count in terms of getting an initial response back from them, 
as well as the final differential undercount problem.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
know that my time is up.
    Mr. Miller. Let me make a comment about the money issue. As 
you know, for the past few years, as far as the appropriation 
process, Congress has been very responsive to getting the 
money--if I'm not mistaken we had a problem last October 1 and 
we made sure in the CR, I forget what it was, but we did 
provide for it. And I think we need to make sure that we work 
with the subcommittee on appropriations, on which I serve, to 
make sure that we will have it. If we go with the CR, probably 
in the past 20 years we've probably had a CR probably 90 
percent of the time, so it will not be an unusual experience. 
So we need to make sure that we provide provisions, because I 
recognize that for the advertising, as discussed earlier, that 
date is critical, so that should not be a problem. But let's 
make sure we keep on top of that issue.
    Mr. Ryan.
    Mr. Ryan. Thank you, Dr. Prewitt. There are two things I 
wanted to ask you. One, I was very intrigued when you mentioned 
that you could do an immediate 24-hour turnaround on getting 
back to a community to tell them how their response rate is 
going. How far of a breakdown will you do? For instance, come 
March 29th, will you be able to tell us how Racine County 
responded or the city of Racine, which is a town of 84,000 
people, responded to the census so we can get in the newspaper, 
look, you know, we only had a--30 percent response, come on, 
let's get going? Will you be able to break it down to 
communities like that, rural areas like that?
    Dr. Prewitt. No. Congressman Ryan, we're working to break 
it down.
    Mr. Ryan. You are?
    Dr. Prewitt. Yes. It's also for the sake of this campaign. 
We're not sure what to call this campaign yet, we're thinking 
about calling it 1990 plus 5, but we're not certain. We're 
still working on it. But we need it as a Census Bureau, because 
we have to target our nonresponse followup enumerators to those 
areas, so that's why we're trying to break it down to them.
    From a public relations point of view, it's enormously 
important to tell a mayor, run that bus in this area, get your 
volunteer workers out to knock on doors. I will give you one 
example. I have appeared on lots of talk shows lately. And I've 
asked every talk show host that I've met with, and we're now 
trying to create this as a national campaign, everyone who 
calls in to your talk show from March 25th to April 5th, the 
very first question you should ask them is, did you mail your 
form in? Just imagine if every talk show host starts saying 
that. Then they can start saying, ``Well; if you're from such-
and-such an area, we know only 82 percent of you or 28 percent 
of you or whatever mailed it back in.'' So, we're really 
working to target in a way to mobilize.
    Mr. Ryan. Now, on to your media buy. You mentioned that the 
media buy will be commensurate with those historical areas that 
have lower response rates. Are you using just 1990 figures for 
that, or are you going back a couple of decades to look at 
areas that are historically unresponsive? Then, are you 
matching your Young and Rubicam media buy with that?
    Dr. Prewitt. Oh, no, the Census Bureau has, as you well 
appreciate, decades of nonresponse kinds of analyses. And we 
incorporate all of that into our research, including even 
projections about where population groups have moved. So you 
can't just rest on 1990 data because, after all, there are 
whole neighborhoods who have been completely transformed since 
1990.
    Mr. Ryan. Right. What I'm trying to get at, I think it's 
very valid and important to target your media buy to those 
areas that based on the available information you have, you 
think will be fairly unresponsive, but also my concern is for 
those towns and cities, you know, below 100,000 people. In 
Wisconsin there are only two cities above 100,000. It's my 
concern that the media buy may miss some of those areas, some 
of those more rural areas that may not with your data show as 
high of an unresponsive rate but still, nonetheless, have a 
fairly significant unresponsive rate. If the media campaign 
misses those areas, we may see a tilting going the other way.
    So, how will this address that?
    Dr. Prewitt. Certainly. That's an appropriate question, 
Congressman. The targeting is based upon two sort of 
interactive models. One is demographics, population groups who 
are nonresponsive. The other is geographic areas where we have 
low levels of response. And we now have to intersect the kind 
of demographic analysis with the geographic analysis. If in a 
place like Wisconsin there are certain geographic areas that 
have been disproportionately nonresponsive, let us say, then we 
would use that as our model rather than just kind of a 
demographic model.
    They obviously are working within a limited budget. They 
have to take that model and map it against how successful they 
think advertising will be, and what the reach will be of this 
particular local newspaper versus that local newspaper or this 
radio outlet versus that radio outlet. They are doing that and 
they will obviously explain that to you when they're here.
    It's not a full answer to your question, because finally 
you are making tradeoffs, and if we have to tradeoff an area 
where we think the response rate is going to be 40 percent to 
one where we think it's going to be 65 percent anyway, then 
we're going to go after the 40 percent, because that's the only 
way to intelligently use the resources.
    Mr. Ryan. Given the fact that this is brand new, this 
advertising is brand new, we haven't done this before, 
hopefully the goal is to raise all areas, as you said, 
everywhere plus 5, so it's not plus 10 over here and still, you 
know, plus 2 over here?
    Dr. Prewitt. Right.
    Mr. Ryan. So, hopefully it will do that. I was wondering if 
you could furnish us with your media buy when you have your 
flight schedules, you know, planned out.
    Dr. Prewitt. Yes, sir.
    Mr. Ryan. Also just as a local flavor, I noticed you said 
Wisconsin. When you're doing your advertising up there, you've 
got to throw more nasal into it. It's Wisconsin. So please 
don't do that when you're doing your advertising; Wisconsin.
    One more thing, I noticed from the letter there was a 
little bit of a misunderstanding. The letter that was sent to 
you for the testimony was to ask you for your advertising 
budget breakdown. I know that there was concern as to whether 
that addressed the marketing, the communications, the 
partnership budget.
    Just to settle all of this misunderstanding that seems to 
be around here, could you provide us with a specific budget 
justification and breakdown for your advertising market, your 
marketing budget, your partnership budget, all of those things 
and the subcategories in your budget with the money that we're 
appropriating? You may not be able to do this right now at this 
time.
    You know, that's what we do. We appropriate money. So if 
you could provide us with the specific category breakdown on 
that budget, I would very much appreciate that.
    Dr. Prewitt. Well, certainly. Let me give you the rough 
cuts now and then if you want more detail.
    Mr. Ryan. OK.
    Dr. Prewitt. The total--the 2000 budget is $199 million as 
was mentioned; $111 of that is advertising, the remaining $88 
then is in partnership and promotion. Approximately $70 million 
is partnership, and the remaining $18 million is promotion. I 
ran through that too quickly, $18 promotion, $70 partnership, 
$111 advertising, totaling to the $199.
    Mr. Ryan. How do you break down the $111, off the top of 
your head, radio, TV?
    Dr. Prewitt. Yes; 65 percent of that is in media buys. And 
I will let Y&R distribute the media buy part of that budget 
across the different outlets.
    Mr. Ryan. Has Y&R given you a rough draft of what their 
flight schedule is going to look like?
    Dr. Prewitt. Yes.
    Mr. Ryan. They have. Could you provide us with that as 
well?
    Dr. Prewitt. Surely.
    Mr. Ryan. Thank you, that's all.
    Mr. Miller. Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman, and to my good friend, 
Mr. Ryan. One thing you can do, Mr. Director, is to make sure 
you count them when there's a doggone Green Bay Packers home 
football game. You will probably get everyone there in 
Wisconsin or however you're supposed to say it.
    Mr. Ryan. The problem is if you go, Harold, and knock on 
somebody's door during a Sunday when the Packers are on and 
it's in the middle of the game, no one is going to answer the 
door. You're going to get shot. You can't interrupt the Packers 
game.
    Mr. Ford. I hear you. I'm with you. We don't have a 
football team. We have UT football and we do the same thing up 
in Knoxville. But, Dr. Prewitt, you were kind enough to come to 
Memphis not long ago and people are still talking about that 
visit. You were able to fire up a lot of the community 
organizations and neighborhood associations and really explain 
to us all the importance of the census. We heard a lot about 
it. There's been a lot of politicization of the issue, as you 
well know, a lot of partisanship on both sides.
    I think you have done a splendid job in trying to manage 
some of the politics. We may have differences of opinion, those 
of us here on this panel about how you're going about 
conducting the business and whether it's the most effective 
way, but I think one thing that can be said with safety and 
certainty is that your interest is ensuring that we get a fair 
and accurate count in the year 2000.
    You recognize the importance for all communities and all 
States throughout the Nation. I did not get a chance to catch 
your opening statement, but I would imagine it was probably 
something along the lines with what you shared with us in 
Memphis some few months ago.
    I guess, if I could, I would really like to sort of give 
you an opportunity to maybe elaborate on your thoughts on the 
status of census 2000. Are we on track? Are we meeting some of 
the milestones that you all have set? How well do you think Y&R 
is working with different communities in promoting? How have 
the outreach activities been conducted and are they meeting 
your satisfaction or, more importantly, the goals that the 
census 2000 staff has set out to meet? So, if you wouldn't mind 
elaborating on that to sort of give us an overview again of how 
things are going.
    Dr. Prewitt. Certainly, Congressman Ford. And I might start 
by saying that was really, for me, a very, very useful visit to 
Memphis. Many of my visits are useful, but that was 
particularly useful, because I sort of saw for the first time 
what kind of eclectic, if you will, community organization it 
takes. You simply need people from all kinds of different 
avenues and backgrounds. I mean, I still remember the first 
question that was put to me when we opened up for audience 
participation, and it had to do with counting the prison 
population, and I suddenly realized, there's a whole group out 
there that is particularly courageous. It was a very nice 
little technical question, what if someone is only in for the 
weekend?
    Mr. Ford. I don't want you to give the impression there are 
a lot of people in prison in my district.
    Dr. Prewitt. Sorry, but you're right. My point is there are 
thousands and thousands of highly specific issues that have to 
be addressed in order to do this--in order to do this well.
    To your larger question, remarkably, the Census Bureau is 
absolutely where it would like to be for this month.
    If they're in part because of congressional support, it's 
there because we got a Supreme Court decision early enough to 
create a single design that we think is responsive to what the 
U.S. Congress and the courts want us to do. And on all of the 
big issues, opening up the offices, getting our address label 
work done, finishing our local review of addresses with our 
jurisdictions, getting the advertising campaign underway, 
having our partnership specialist, on lots of the key 
operational things which have to be in place by this day in 
order for everything else to follow. We're on schedule.
    I think it's a remarkable tribute to the Census Bureau. 
Certainly not to me, but to the quality of the people who are 
there. I can tell you in response, Mr. Chairman, since you've 
been concerned about some of these responses, our budget people 
have worked all day Saturday and all day Sunday for the last 5 
weeks in trying to be as responsive as they can to two separate 
sets of questions, some of which came from Chairman Miller 
through the GAO and some of which came from Chairman Rogers, 
and quite different sets of questions. The only way we can try 
to get the answers to those out was to work all day long, not 5 
days, but 7 days.
    That's what we did. I worry a little bit, quite honestly, 
about the stresses and strains we're putting on our staff at 
this time to deal with things that are not directly 
operational, because I'm going to need those people working 
every weekend in November, December, January, and February. We 
will all be working every weekend in those key months.
    So, I am hoping that there will be some kind of space that 
we can kind of gather up or regather our energies as we go into 
the tough operations. On the big operations, we are on 
schedule. That's the good news; well, there are footnotes to 
that I should say, for example, a particular thing we're 
working on right now is getting our telephone lines into our 
local offices. That's dealing with contractors and service 
providers.
    Right now, that's a bottleneck. We will solve that in 2 or 
3 weeks but every week there's a different bottleneck. That's 
the one we're working on right now. I don't mean to say there's 
nothing that's problematic, but it's bits of pieces at this 
stage.
    Mr. Ford. I realize we will hear from them later, but how 
would you, at this point, grade Y&R's performance and have they 
met the expectations articulated by you early on?
    Dr. Prewitt. Right. You will hear, Congressman Ford, I have 
now sat through, I guess, a total of, oh, I would say probably 
somewhere between 35 and 40 hours of presentation of their 
early creative based upon the research. I went to focus groups. 
I watched their interaction with the focus groups. I have now 
seen their early creative. They had about 189 major ideas, 
that's now down to 111. I watched that screening process.
    I would say that this is very high-quality professional 
work. It is targeted to groups we want to reach. It's in 17 
different languages. About half of it is either in language or 
in cultural sensitivity. It's focused very directly. They have 
a very elaborate kind of marketing model in mind. So, the 
Census Bureau has been very pleased with that contract.
    I'm happy to say that on the record. And if we weren't, I 
would be sharing that with you, because we're as responsible 
for the quality of this work as, of course, they are, because 
it's our contract. But, no, the work is high quality.
    Mr. Ford. Thank you again. Whatever time I have left, I 
yield back. Thank you, Mr. Chairman.
    Mr. Miller. Thank you. We will do another quick round, if 
you want to, fine; if you don't, we will move on to the next 
panel.
    But I have a couple of questions. First of all, with 
respect to Y&R, you said their task is really targeted to the 
hard-to-count populations. As we talked about the integrated 
marketing strategy, there's a lot of things that are going to 
affect the response rate.
    Comment specifically on what the goals and objectives are, 
so when we get ready to talk to them, we will know. How do you 
plan to evaluate their effectiveness? I remember back in 
marketing days, 50 percent of your advertising was a waste, 
which 50 percent was it?
    Dr. Prewitt. Right.
    Mr. Miller. And we look forward to talking with them about 
that issue. But how will you, because a part of partnerships 
and everything else will contribute to it? Is there a way to 
measure it? Do you have any plans for the way to measure the 
effectiveness?
    Dr. Prewitt. We obviously have plans. That doesn't actually 
mean it's the most effective way to measure this as conceivably 
thought up. We have led a contract to a major private 
contractor to evaluate the impact of the advertising campaign. 
They will be in the field collecting survey data in November. 
That is just prior to the arrival, we hope in public, of the 
media campaign. They will be asking awareness campaigns, where 
did you hear about the census and so forth and so on.
    As you know, once you're in the middle of something like 
this, it's very, very difficult to parse out. ``Where did I 
hear about it? Did I see an ad? Did my mayor make a speech? Was 
there a town meeting? Did a neighbor tell me?'' At a certain 
point, the messages all feed into this. This is not, from the 
point of view of the Census Bureau, a problem. We think 
saturation and repetition is going to be key to response rate.
    So we want someone--and this is going to happen--a given 
respondent, to see an ad on the television that comes from Y&R. 
Then, they're going to see a bus driving around with census on 
it, and that's going to come from the local count committee. 
They're going to get in the utility bill a reminder to fill in 
the census form that's going to come from the partnership 
effort. And then, they're going to hear a sermon on census 
Sunday. We are now planning something called census Sunday, 
where we're going to get every church in the country to stress 
the importance of the census.
    Now, all of those things are going to create, we hope, a 
saturation environment with respect to the census. And we will, 
at the final analysis, have a very difficult time saying Y&R 
contributed this much. When we let the contract, we certainly 
put to them, did they have any models which would specifically 
say what increase in response rate did they think their 
advertising campaign would create, and they came back with a 
model.
    Now, I can't go to the bank on that model. It would be an 
imprudent act of the Director to say I'm confident that that 
will happen. That's the mark that we're going to hold them to. 
If the overall mail response rate in 2000 is lower than 1990, 
then we will have to say the advertising campaign did not do 
what we expected it do to.
    If it's 4 or 5 percent higher, we will say it did do what 
we expected of it, but we can't know for certain that was the 
only thing that did it. And we will be in that bind. We are 
letting out a special contract to try to evaluate.
    Mr. Miller. Let me ask one question about partnerships, 
and, that is, you've got, what, $70 million for the partnership 
program basically, and you've got $20-some thousand already, 
and you expect 1,000 more. I think each congressional office 
may become a part. But you have 500 people working in it. I 
mean how effective is it going to be? Is it just a marketing 
gimmick? I mean you have 500 people working on these tens of 
thousands of partnerships. Is that enough resources we're 
putting into it and with the limited number of staff you have 
for it?
    Dr. Prewitt. Yeah, each local office will have a 
partnership specialist, and they will be doing all day long 
nothing but partnership kind of work. We will have as, you 
know, a local office in each of the congressional districts. 
Much of the partnership work is local. Now there's also a kind 
of national partnership. We've got people out in Suitland who 
do partnership work, and they're signing partnership agreements 
with NAACP, Urban League, MALDEF, the Chamber of Commerce, and 
so forth. It's very hard, Congressman Miller, for me to tell 
you what percentage of those are going to turn into something.
    A lot of them will only be a signed paper. I know that. The 
question is, if some reasonable proportion of them actually go 
out and do something, if the Catholic church carries the 
confidentiality message to the Hispanic population, that's a 
very major consequence. If Good Will Industries--and we have a 
major partnership agreement with them--reaches into its 
constituency, that's important, because that's a hard to count 
constituency. So what percentage of those 22,000 will actually 
do something important and big? All of them will do something. 
They will put notices in their newsletters, and so forth, and 
that's fine.
    Some will do a lot more, and we only have to hope that the 
proportion of them that do a lot more will boost that response 
rate.
    Could we do with more partnership specialists? Well, if you 
ask that question to 12 regional directors, every one of them 
will say, yes, they really feel they're under stress and 
strain. We had to, of course, at the headquarters make a 
decision about what the budgetary restrictions would be.
    There's also a management task. We care deeply about the 
partnership program, the media outreach, but we also have a 
whole set of operations that have to be managed, which is mail 
out, mail back operation, the update leave operation, the 
coverage improvement operations and so forth. So, we have to 
worry a little bit about what is the effective use of our 
management strategy and structure to maximize the overall 
consequence.
    I will put it this way; 642 partnership specialists is not 
an inappropriate number. It could be larger, it could be 
slightly smaller, but it's not a bad number to go into the 
census with. I'm not discomforted about them being too low a 
number.
    Mr. Miller. So you have 435 congressional districts each 
having one?
    Dr. Prewitt. Correct.
    Mr. Miller. The rest are going to be targeted to the 
hardest areas?
    Dr. Prewitt. Of course.
    Mr. Miller. So, an area like Mr. Davis' district is a hard 
to count, he may have two or three?
    Dr. Prewitt. Two or three. And they're all in language, 
every one who needs it has a language skill, they're almost 
exclusively--they're all exclusively, by the way, African 
American, Hispanic, Asian American, American Indian. I mean, a 
very high percentage of them come out of the difficult to count 
demographic groups.
    Mr. Miller. So, again they're targeted hard to count?
    Dr. Prewitt. Extremely targeted.
    Mr. Miller. Mr. Ford, do you have any more questions?
    Mr. Ford. Just one last one to followup really on what the 
chairman has asked. Some folks have suggested that we triple 
this census 2000 budget. In listening to you talk about some of 
the stresses and strains imposed upon your staff right now, I 
know it's difficult for you to talk about that in this setting, 
but to the extent that the chairman would allow you to expound 
on that point, just in general, if you would just maybe magnify 
the stresses and strains and what we could do, if indeed we 
reach a point where you feel your staff is burned out. We're in 
practice right now. When the game really starts, I want the 
legs to be as fresh as you do.
    So, as we talk about increasing this budget, is that 
something we ought to take seriously, more seriously than 
perhaps we are, because right now it seems to be more political 
than based on facts. And listening to you today leads me to 
believe that perhaps this conversation or this dialog ought to 
take on a new level of seriousness.
    Dr. Prewitt. Well, I appreciate the question, Congressman 
Ford, because it is serious. We would have to talk about the 
particular way in which the budget might be increased. Take 
just the advertising budget. As I think the Y&R people will 
testify, there is a point that it is redundant, it's saturated. 
As you know, based upon the creative that you've done, you can 
only do so much media buy. And if you don't now have time to 
increase the creative, then doing additional media buy doesn't 
buy you anything. So there is a saturation point on that. 
That's different from the stress and strain, but I think when 
we've talked in the past about whether the advertising budget 
should be $300 instead of $100 million, that was kind of the 
conversation we were having. And I think the chairman has 
acknowledged in his own opening remarks that it seems to be 
that we're not at a bad place. I believe I can attribute that 
from your comment.
    The larger question you ask about the strains on the staff, 
I'm concerned about it. I don't want to leave the impression 
that I think we're at the edge of burnout, because I don't 
think we are, there's enormous energy and commitment to the 
census among the professional staff. We have been pushed very, 
very hard. We were on two separate tracks, as we well know, up 
until January 15th and the Supreme Court decision. It is 
extremely difficult to maintain two separate tracks, and then 
we had to very quickly fix on a particular track that satisfied 
as many of the purposes of the census as possible, get that 
budgeting process done and so forth.
    And, quite honestly, Congressman Ford, we've not been cut 
any slack by any of these processes; that is, I would hope that 
the U.S. Congress and other agencies that have to exercise 
their oversight responsibilities--not for a minute do I deny 
that we are spending a lot of public money. We have a real 
responsibility to tell the public how we are spending those 
dollars, but nevertheless we have to actually do it and we're 
now doing it, and it would be extremely useful if there could 
be a bit of an understanding about what we're trying to do as 
we're trying to explain.
    We spend a lot of time trying to explain it, rather than 
actually managing it and moving the operations forward. To put 
additional tasks on our design at this stage, as I've testified 
in front of this committee before, is, I think, not prudent. I 
would now not add any additional tasks.
    We had a hearing before this committee not too long ago 
about counting overseas Americans. That would have been a 
serious additional task to put on census 2000 at this stage of 
the game. For that reason, I had to recommend against it. I 
actually met since then with the coalition, the Overseas 
American Coalition at great length, talking to them about this, 
in trying to talk through their problems and our response and 
so forth. I think we made headway with that particular group.
    But at this stage, to say go out and do that task would 
really strain our operations, as I tried to explain to them. 
So, whatever it is that adds a whole new operation to the 
census would be, I think, really imprudent at this stage.
    Mr. Ford. Thank you, Mr. Chairman.
    Mr. Miller. Let me clarify something, Mr. Ford. Are you 
saying we shouldn't be providing oversight, having been 
concerned about the $4\1/2\ billion they were going to spend 
this year? We really have a responsibility. I'm on the 
Appropriations Committee subcommittee too, but we need to know 
as we go through this appropriation process to justify this 
very large sum of money, as do any of the committees.
    Mr. Ford. No, I don't have any problem with it. I was only 
asking as it related to the Director's comment concerning the 
stresses and strains on the staff and whether he went in a 
direction that he wanted to go, but I would have no problem 
with us demanding accountability. I would join you in that.
    But I would also hope you would join me if the Director 
comes back to the committee and says more resources are needed 
to complete this task. I would hope all of us would have a 
willing ear and perhaps are willing to vote that way as well 
and hold them accountable for every dollar he spends.
    Mr. Miller. As you know, we provided about $200 million 
more than the President has asked in past appropriation 
requests.
    Mr. Ford. The President isn't always right. I agree with 
you on that, too. If he comes back and says more money is 
needed, I'm going to trust him more than I trust the President. 
He's on the front line. That was my only point, Mr. Chairman.
    Mr. Miller. All right. We do have a serious responsibility 
for oversight of Federal taxpayers dollars. I hope no one is 
inferring that we shouldn't, you know, have an oversight 
responsibility.
    Dr. Prewitt. Certainly I'm not, sir, as you know.
    Mr. Miller. OK. I think we need to move on. Thank you. 
Thank you, Dr. Prewitt. We will probably see you in September 
on a hearing. So, we will proceed to the next panel. Thank you 
very much.
    Dr. Prewitt. Thank you.
    Mr. Miller. If Ms. Dukes and Mr. Chisholm will come 
forward, please. This is an oversight hearing, so we get sworn 
in under the rules of this committee.
    [Witnesses sworn.]
    Mr. Miller. Let the record note that you answered in the 
affirmative. Welcome, and thank you very much. We've been 
looking forward to this hearing for some time and we haven't 
had it until now because we wanted to make sure everything was 
a little better organized as we move along. I know there was a 
meeting earlier in July with the ranking member, who 
participated, and some of my staff were there, and they were 
very pleased.
    I'm sorry you don't have any things you could show us 
today, but I understand some legal restrictions on that, and we 
will see that at a later date. But I know you each have opening 
statements. If you would like to proceed, who would like to 
proceed? Ms. Dukes could go first.
    Ms. Dukes. Yes, please.
    Mr. Miller. Ms. Dukes.

  STATEMENTS OF TERRY DUKES, EVP, ACCOUNT MANAGING DIRECTOR, 
 YOUNG AND RUBICAM, NEW YORK; AND SAMUEL J. CHISHOLM, CHAIRMAN 
            AND CEO, THE CHISHOLM-MINGO GROUP, INC.

    Ms. Dukes. Thank you, Mr. Chairman and Mr. Ford, thank you 
very much for inviting me here today. You asked me to address 
five issues and I will. First, the overall coordination with 
subsidiary firms representing minority groups, the development 
of the campaign message, lessons learned from dress rehearsal, 
learnings from our focus groups and finally the difference 
between diverse America and in-language and in-culture 
programs.
    First, on the coordination with the subsidiary firms, we're 
actually functioning as one team. As Dr. Prewitt mentioned, the 
team consists of Y&R as prime contractor; the Bravo Group, 
which is an independently managed Y&R agency dedicated to 
reaching Hispanics; Kang & Lee, which is also an independently 
managed Y&R agency but dedicated to the Asia communities and 
the single largest buyer of Asian media in the United States; 
G&G Advertising, focusing on the American Indians and the 
Alaskan Natives; and Chisholm-Mingo Group--Sam is with me 
today--dedicated to the African American market.
    And this team operates under the management umbrella of 
Y&R, but all focusing on a common goal of increasing 
participation in the census. Our operating structure is built 
around cross agency functional teams. For example, we will have 
a media team that consists of representations from all of the 
agencies. It's led by Y&R, but all of the agencies have their 
media people on the team, and the way they work is together 
they will determine the media objectives, they will then go off 
and independently develop ideal programs for their audiences 
against those objectives, cost out those programs, come back, 
look at what those programs are costing relative to the finite 
budget we've been given and then begin the process of 
determining where it makes the most sense for the overall 
success of the program to start making adjustments.
    So, in this sense, we are operating against results and not 
allocating buckets of money toward specific tasks, if you will. 
So, we're operating as one team against a common goal.
    Second, development of the campaign message. Well, in 
everything we are doing as a collective team, we're taking a 
very disciplined approach, which means that basically we have 
check points and course correction all along the way. We begin 
with the segmentation model, which informs the media strategy, 
which then informs the creative that we will produce. Now, what 
creative says has to be relevant to the audience we're talking 
to. So, we began to develop that message by looking at history, 
looking at the historical response rates of the census, what 
were some of the challenges to participation that were 
encountered.
    We used existing research from the Census Bureau. We went 
to their library and we used other outside forces, of which one 
was certainly Roper talking about the mood of the Nation, and 
one of the things we learned in the Roper research is this 
disengagement in specific responsibility, so we saw that as a 
serious issue.
    Certainly there are numerous barriers to individuals 
completing the census form, but the primary is that the census 
has become irrelevant. It's negatively tied to government, its 
intentions are misunderstood and its benefits are unknown. This 
is what our respondents told us as we were trying to understand 
what kind of messaging would motivate them.
    So we concluded that our task needed to dispel the notion 
that the census was Uncle Sam's head count. We needed to 
position the census as a personal empowerment tool, and we had 
to importantly make census personally relevant. Thus we came up 
with the creative strategy that answers the question, ``What's 
in it for me?'' We call that the benefit strategy.
    We tested this strategy. We tested it against 
reapportionment. We tested it against it's your civic duty, 
patriotic responsibility, and we tested it against a 
confidentiality message as well. This benefits message was 
found to be most universally appealing across all the target 
audiences, much more so than the other messages I mentioned.
    And one of the interesting outcomes as we tested this is 
that we learned that there was a hierarchy of benefits that 
were important to or relevant to specific target audiences. So, 
the advertising will reflect the benefits that were fed back to 
us as important to these audiences; for example, education, 
health care, roads and highways.
    So, taking that strategy, we went into the dress rehearsal, 
and what did we learn? Remember I indicated that the messaging 
and the media strategy were informed by segmentation model, and 
Dr. Prewitt referenced it in his earlier remarks. The most 
important finding from the dress rehearsal was the validation 
of the segmentation model that we call and have trademarked the 
likelihood spectrum.
    Now this model is based on a sliding scale of community and 
civic involvement factors used as a means of predicting the 
likelihood of participating in the census. It ties back to the 
earlier discussion about civic engagement. The more engaged you 
are, the more likely you are to complete the census form.
    The less engaged, the less likely. Dress rehearsal proved 
that this model was a significant predictor of response of 
participation in census and, in fact, it was a better predictor 
than previously used demographics. In Sacramento, for example, 
for every one unit increase in civic activity, there was a 30 
percent increase in the predicted odds of mail back. In South 
Carolina, that percentage went up to 48 percent.
    Now, one thing we did not learn in the dress rehearsal, 
because we did not test, was the effectiveness of media 
selection. Now, the reason we did not test this is because we 
weren't able to develop what we will call a statistically 
significant test environment where we would have control, as 
well as various levels of media. We were able to test the 
message. And I will talk about that in a moment.
    The reason I bring this up about the media is because I 
believe there was some concern over the fact that Sacramento 
did not utilize all media available. This is true. The reason 
for that is that when we developed the dress rehearsal media 
buy, it was based on a translation of the equivalency of the 
national media that would be utilized in that particular market 
during the main event.
    We will be dedicating 49 percent of our total budget to 
local media as an overlay to the national media, but not every 
market will get every local medium because the budget is 
finite. And so we used in Sacramento the same local media that 
we will be getting in the main event; therefore, we did not buy 
media to saturate Sacramento, we bought media to replicate, as 
best as possible, what would be happening in the main event.
    Now, what we did learn about message effectiveness was very 
encouraging. This was an independent study commissioned by the 
Census Bureau and conducted by Westat. And what Westat told us 
is that overall our messaging raised awareness, increased 
knowledge, and increased positive attitudes toward the census. 
Now, this is important because we were able to find an indirect 
link between increases in awareness and participation and 
increases in knowledge and acceptability of nonresponse 
followup.
    So, Dr. Prewitt mentioned earlier we have this hard task of 
really linking results to what element of the marketing program 
and specifically to the advertising. In fact, advertisers for 
centuries have been trying to find a direct correlation between 
advertising and sales. It's virtually impossible but we did 
find an indirect correlation. So, we're very encouraged that by 
raising awareness, we will raise the anticipation of receiving 
the form, and the Census Bureau tells us that their research 
shows anticipation of receiving the form increases 
participation.
    So, we feel pretty good about suggesting that the 
advertising will increase participation and, in fact, that ties 
into the model that Dr. Prewitt mentioned. We came to him with 
suggesting that indeed we will be able to do that.
    Now, within the context of the dress rehearsal, we tried to 
get at the hard to reach. Now, the hard to reach also happened 
to be hard to research. So, in addition to the Westat study, 
Y&R commissioned its own study to do focus groups before the 
advertising ran, to do focus groups after the advertising ran, 
and to quantitatively test the advertising that we used. And, 
what we learned was some of the work worked and some of the 
work didn't.
    We learned that as we did the focus groups, quantitatively, 
and we looked at the individual messaging. The work that worked 
was the television commercial created for diverse America. The 
TV and radio spots created for American Indians and for the 
Hispanics is the work from the dress rehearsal that is going 
forward into the main event. All other work for the main event 
is newly created.
    And that newly created work has been tested also in focus 
groups, and here's what we learned. Actually, in March and 
April, this was a mammoth undertaking. There's never been 
anything like it. We did in those 2 months 1,700 interviews 
with all target audiences in all census regions, exposing over 
100 ad concepts, not different ads, but ad ideas.
    And I think the purpose of the testing was to gain cultural 
insights and learning that would optimize the power of the 
advertising, not do you prefer this ad over this ad, is this a 
good idea, is this a bad idea, but tell me more about this idea 
so I can make it more powerful, so I can make it stronger; or 
tell me what's really not working about this.
    The net result is that we eliminated some advertising, we 
modified some advertising and we developed some new advertising 
from ideas that came out of the focus groups. But overall we 
were very encouraged. The whole campaign approach does what we 
want it to do. It dispels the head count myth. We learned that 
there needs to be a credible connection. While benefits are 
believable, there needs to be a very careful and credible 
connection between the benefits that we're promoting and the 
census because overpromise will actually challenge credibility.
    We learned that the combination of suggesting broad-based 
benefits like your share of the $185 billion in Federal funding 
for your community, combined with specific benefits like the 
need for improved schools, was a very powerful combination and 
that is reflected in the advertising. And we learned that the 
tagline reinforces the benefit strategy and because of its 
future orientation and call to action is universally appealing.
    Another encouraging aspect is that these findings were 
credible or they were valid across all the target audiences, 
which sort of reconfirmed our notion of working off a single 
strategy. Now, though, we are working off a single strategy. 
There are some distinctions between the messaging for diverse 
America and the messaging for the in-language, in-cultural 
programs. I'll address that now.
    The Diverse America Campaign will reach every adult who 
consumes English language media regardless of their ethnicity 
or their likelihood to complete the census form. In fact, our 
media strategy, our media plan right now will reach 99 percent 
of all adults 18 and older who consume English language media. 
In addition to that, there will be overlays of media, 
approximately half of the total media budget toward in-
language, in-culture vehicles, media buys if you will. These 
media buys are targeting specifically to the least likely to 
respond. This happens to skew more toward the minority groups 
and will specifically be targeted to almost one-half the total 
black population, which includes African Americans, Caribbean, 
sub-Saharans and Haitians; to Hispanics who are both United 
States born as well as immigrants from Mexico, Central America, 
South America and the Caribbean; in-language to Asians, two 
dialects of Chinese, Koreans, Vietnamese, Filipino, Asian 
Indians, Japanese, Cambodian, Thai, Hmong and Laotian; and the 
emerging markets of Russian, Polish, and Arabic speaking 
peoples. These were targeted because of the immigration 
figures. We know there are other populations but the recent 
immigrants, the total recent immigrants, are high enough to 
require in-language programs: the majority of American Indians, 
Alaska natives, and Puerto Rico and the island areas.
    Now, these groups that I just described will get almost as 
much of the media that is going to diverse America, so it's an 
overlay program. And the messaging will be targeted to be more 
relevant to these audiences as well. For example, to the 
African-American population, it's very important to create a 
strong sense of group identity. Therefore, the tagline will 
actually be altered to this is your future, don't leave it 
blank. It's African-American talking to African-American. As 
Dr. Prewitt mentioned for the Hispanics and even the Asians and 
the emerging Polish, Russian and Arabic speaking, there will be 
more information in the advertising actually explaining what 
census is all about and there will be a lot of messaging 
regarding confidentiality because to these groups this is a 
very serious issue. And my final example to the American 
Indian-Alaska native populations, this group holds their elders 
and children in very high esteem, so their tagline is being 
altered to explain generations are counting on this, don't 
leave it blank.
    Those are just a few examples of how the program is being 
targeted to each of the distinct populations. The media mix 
will also vary because we know from syndicated research that 
the media habits of each of the target audiences varies. So, 
for example, we know that radio is a primary vehicle for 
African Americans, whereas print is the primary vehicle for 
Asians and when you're talking to diverse America, you'll be 
using primarily television.
    Now, I'm not suggesting that not all media will be used for 
all populations or for all target audiences. In fact, all media 
will be used for all populations. However, the skew, the mix, 
the relative weights will vary based on media preferences for 
those groups.
    So in summary, the difference between the diverse America 
program and the in-language, in-culture programs is really 
executional, to be more culturally relevant to each of those 
target audiences. The strategy is the same. The media approach 
is the same. And the weight that is reaching as many of those 
individuals as we possibly can remains the same goal.
    Thank you. That concludes my prepared testimony. I would be 
glad to take any questions.
    [The prepared statement of Ms. Dukes follows:]
    [GRAPHIC] [TIFF OMITTED]61550.015
    
    [GRAPHIC] [TIFF OMITTED]61550.016
    
    [GRAPHIC] [TIFF OMITTED]61550.017
    
    [GRAPHIC] [TIFF OMITTED]61550.018
    
    [GRAPHIC] [TIFF OMITTED]61550.019
    
    Mr. Miller. We'll let Mr. Chisholm make an opening 
statement. Mr. Chisholm, welcome.
    Mr. Chisholm. Mr. Chairman, Congresswoman Maloney, members 
of the subcommittee, I thank you for giving us this opportunity 
to participate in this hearing to talk about something that we 
are very passionate about and that's census 2000. We're 
passionate about it because of what it represents to the 
African-American community specifically. You asked us to 
address the in-language, in-culture campaign, how we are 
coordinating with Young and Rubicam and the potential for the 
campaign's effectiveness in the hard to reach communities. One 
of the philosophies that we believe in is that you have to 
affect attitude and therefore you will affect behavior. This is 
truly key in all of the things that we have done as it relates 
to census 2000.
    Mr. Chairman, I also want to address a comment that you had 
made earlier when you said that 50 percent of advertising is a 
waste. I know that you were a former professor of marketing and 
I must tell you that that was some very bad advertising. It 
clearly did not have a solid and significant strategy of which 
we are about today.
    The Chisholm-Mingo Group is a full-service advertising 
public relations agency located in New York City. I am proud to 
say that the Chisholm-Mingo Group is an independent African-
American advertising agency. Our interest in the census dates 
back to our involvement in the 1990 census. Now, having said 
that and having listened to the comments and the criticisms of 
the 1990 census, I'm not so sure if a lot of my testimony is 
going to be valid because of the large numbers of criticisms 
that were given to the 1990 census and our efforts, but 
clearly, there's a significant amount of learning that we 
realized from the 1990 census. It was an extreme pleasure to be 
contacted by Y&R in December 1998 in which they asked us to 
pitch the subcontract portion of their contract. The Chisholm-
Mingo Group participated with five African-American agencies at 
that time and we were awarded the subcontract on January 3, 
1999.
    We believe that our selection was based primarily on our 
true understanding of the African-American or black American 
community, our commitment to the census, our experiences with 
the 1990 program as well as our understanding and our ability 
to galvanize a kind of a world class marketing communications 
team to work on the project. Now, between Y&R, the Chisholm-
Mingo Group, Bravo for Hispanic, G&G for American Indian, and 
Kang & Lee for Asians, there's a clear understanding that we 
all work toward the same goal with the same strategic intent 
and intensity. The difference is that we leverage our attitudes 
and our attributes that are most important to our specific 
target market. The Chisholm-Mingo Group's responsibility to the 
census 2000 happens to be the African-American community.
    Now, it requires us to begin by laying a real sound and 
significant strategic foundation that will work pretty much as 
follows. The census 2000 diverse America strategy which Y&R has 
created is expressed in the tagline, ``This is your future, 
don't leave it blank.'' In understanding the mindset of the 
African-American community, the Chisholm-Mingo Group has 
modified the strategy for the African-American market. The 
African-American communications kind of reexpression of that 
tagline is: ``Census 2000: This is our future, don't leave it 
blank.''
    Now, in preparing the communications programs for the 
African-American market, we were cognizant of the changing face 
of black America. As a vital part of our communications 
efforts, we have a separate targeted effort focused on the sub-
Saharan African communities and specifically, but not limited 
to, Ghanains, Nigerians and Ethiopians as well as the Caribbean 
community, including, but not limited to, Jamaicans as well as 
Haitians. Now, within these emerging black markets, we 
understand that there are cultural similarities but we also 
understand that there are cultural differences, particularly as 
it relates to African Americans. And in developing our 
strategies and in developing our tactics, we clearly recognize 
that and it is clearly reflected in the work that we have done. 
Now, all that I have kind of broad stroked in these general 
remarks have been examined and tested both quantitatively and 
qualitatively through research. Research among other least 
likely and undecided market segments have been done and in 
pretty much every region of the country and among the hard to 
reach and the least likely urban, as well as rural communities. 
We have validated the appropriateness and the effectiveness 
that the images and the words that we have developed, their 
impact on the minds and the mindsets and the hearts of the 
African-American, Jamaican, Haitian, Nigerian, and the Ghanain 
people. ``Census 2000: This is our future, don't leave it 
blank'' has the potential to open the mind of every most hard-
core, least likely of all patrons to the possibility that 
census 2000 participation can mean a difference, particularly 
as it relates to better education, better schools, health care, 
job training and various opportunities in the communities.
    The Chisholm-Mingo Group, in closing, is committed to 
identifying and evaluating minority owned media vehicles and 
properties that will leverage our messages and that will ignite 
the word-of-mouth communications that is so very, very 
important to the black communities both on a national as well 
as a grass roots level. Beginning in November 1999 and through 
May 2000, the most recognized tagline, at least we believe, in 
the black American community will be, ``Census 2000: This is 
our future, don't leave it blank.''
    Mr. Chairman, that concludes my testimony.
    [The prepared statement of Mr. Chisholm follows:]
    [GRAPHIC] [TIFF OMITTED]61550.020
    
    [GRAPHIC] [TIFF OMITTED]61550.021
    
    [GRAPHIC] [TIFF OMITTED]61550.022
    
    [GRAPHIC] [TIFF OMITTED]61550.023
    
    [GRAPHIC] [TIFF OMITTED]61550.024
    
    [GRAPHIC] [TIFF OMITTED]61550.025
    
    Mr. Miller. Thank you both for being here today. I very 
much appreciate your testimony. Let me start off with a couple 
of questions. Let me clarify what your goal is, Ms. Dukes. Is 
your task the undercounted populations? You said you reached 99 
percent of the English speaking population. But your real goal 
is the undercounted populations targeted, right? Is it 
secondary that you're reaching your neighbors?
    Ms. Dukes. The overall goal is to increase participation in 
the census and when we parsed out the audience according to our 
likelihood spectrum, 40 percent of the audience is most likely 
to participate; 43 percent are undecided, passive; and 17 
percent are least likely to participate. So, the media is being 
built to put the heaviest amount of weight against the least 
likely to participate. The least amount of media weight against 
the most likely to participate. So, we know, for example, that 
our best prospects are probably in the middle. They're probably 
going to be the ones who are easiest to persuade via a message.
    Mr. Miller. The 43 percent.
    Ms. Dukes. The 43 percent to complete the census form. 
Because the 17 percent is the hardest to reach, the hardest to 
count, we're putting the most media weight against them. We're 
not naive enough to expect that advertising alone is going to 
motivate them to action but we do believe very strongly that 
the advertising program will play a huge part in paving the way 
for the partnership programs, the complete count committees, 
all of the grass roots efforts that will take place down at 
that level. So, to answer your question, yes and yes.
    Mr. Miller. We had a hearing in Miami last December that 
Congresswoman Maloney and I attended both with Carrie Meek, and 
I remember, for example, talking with the Haitian community 
down there. Using that as an illustration, how do you target 
advertising? Who develops the ads and the media buys? We'll 
just use that Miami market alone for the Haitian community and 
my area, Sarasota, FL, and there's some Haitian population 
there but not a large number. Do you ever even try to reach the 
Haitian population in Sarasota? I don't know the numbers but 
it's not large, whereas in the Miami we're talking a couple 
hundred thousand, I think. Who makes those decisions, how is it 
decided what buys to make, what the media message is and is it 
the same with the Haitian community in New York?
    Mr. Chisholm. We make that decision. We have staff members 
who happen to be Haitian and we've done a significant amount of 
research against the Haitian population. In reaching the 
Haitian population, we will be using both Creole, French, as 
well as English, to reach them in terms of the language. We'll 
also make the decision in terms of the media buy. We will 
concentrate on the larger pockets of the Haitian community. New 
York has a significant pocket of Haitians. Connecticut has a 
significant pocket of the Haitian population. Going beyond the 
Haitian population, we've looked at this emerging black market 
just pretty much in those terms in attempting to look at the 
larger pockets of these particular groups of people.
    Mr. Miller. A Haitian radio station or Haitian newspaper--
I'm using Haitian as an illustration.
    Mr. Chisholm. We have researched that both through the 
individuals that are on staff, as well as our advisors. We have 
looked into all of the Haitian media outlets that are available 
to us.
    Mr. Miller. You're not involved in the census in schools, 
are you?
    Ms. Dukes. Only in that the scholastic organization is a 
subcontractor to our contract, but it's really their program.
    Mr. Miller. Explain to me the head count myth again, Ms. 
Dukes, as you used it.
    Ms. Dukes. There's a belief that the census is really just 
counting people. Nobody really understands, or not a large 
number of people truly understand, what the census is used for. 
So, when I talk about dispelling the head count myth, it's the 
idea that it's just a count and trying to communicate that 
benefits come your way when people like you know how many 
people there are in various places.
    Mr. Miller. In the total budget for advertising, it's $111 
million total. That's what your contract is dealing with, $111. 
I know we're not talking about anything illegal. But out of 
$166 million total, $111 will actually be used for purchasing 
media? $106 million will be used for purchasing media of $166 
million. It would be $166 million in media buys. Out of $166.6 
million. That's 64 percent.
    Ms. Dukes. Is that a good number?
    Mr. Miller. The 36 percent for the research and for 
everything, does that go to you or does that include money 
within the Census Bureau? And Dr. Prewitt may have to respond 
to that. What happens to that difference between $106 million 
and $166 million? There's $50 million, $60 million we're 
talking about here.
    Ms. Dukes. I can tell you where it's going.
    Mr. Miller. You gave me a percentage breakdown. I 
understand that but it seems like a lot.
    Ms. Dukes. A lot that goes to media or a lot that goes 
elsewhere?
    Mr. Miller. It seems we could have more going directly to 
media rather than the overhead type of costs.
    Ms. Dukes. Sixteen percent of it is going to labor and that 
includes all the agencies. Another 16 percent of it goes to 
production and creative development. There was a certain 
percentage of it that went to dress rehearsal and then there's 
a small percentage that's going to what we call operating 
expenses, things like travel and shipping and stuff like that, 
as well as talent payments, when you pay union scale, when you 
contract with talent for the advertising and so we have to set 
money aside for that.
    When we began the process, we looked at what other 
advertisers spent in terms of their ratios between taking their 
total budget, looking at the ratio between media and all else. 
Anywhere between 60 and 70 percent is pretty typical. That's 
like standard practice, best practice kind of thing when you 
look at the Procter & Gambles of the world and some of the 
bigger advertisers, which you are. You are a very big 
advertiser. The other thing you look at is the ratio between 
production and labor. Those should be about the same. It should 
take as much labor as it does outside production costs to make 
the advertising. So in terms of standard practice, best 
practice, you should feel good about the ratios.
    Mr. Miller. Who came up with the $106 million and $166 
million? Is that what you requested? I know that's what Dr. 
Prewitt decided we could afford.
    Ms. Dukes. We began the process of looking at how the 
budget would break between media and labor and production at 
$100 million. That was the number that had been used and we 
were given. After the Supreme Court ruling, we talked about 
increasing the advertising effort to include an educational 
program and an educational module, as well as a nonresponse 
followup module, and we again applied our models. We did some 
research and we came up with some numbers, which is how we got 
to the total $166. What additional we would need in media, what 
additional we would need in production in order to have 
messaging that was relevant to those phases and that didn't 
wear out, how many messages did we need.
    So, it's a complicated parallel process of determining what 
are the media available, how much do we need to be effective in 
reaching our audience, how many messages do we need in order to 
get the right messaging out there in a way that doesn't wear 
out. So, from the $100 we built up to the total $167 to include 
the media and the production and the labor that we're required 
to add on that educational phase, as well as the nonresponse 
followup phase.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. Can you give us an idea about how big this 
campaign is compared to ones that we're familiar with like say, 
a Coke campaign or a Nike campaign, in terms of people you 
relate to?
    Ms. Dukes. Well, in terms of the dollar amount, it's a very 
big campaign. You would be one of the largest advertisers. 
However, the fact that you are trying to reach as many people 
as you are puts a real strain on the number. What is good, 
however, is that it's in a very condensed period of time so 
there's really very little we can compare that's an apples to 
apples comparison. If you think about Coca-Cola, yes, they 
might spend $100 million on advertising over the course of a 
year but it's over the course of a year and it's targeting a 
very finite best prospect group. We're in a short period of 
time, which is good, which makes our money more effective but 
the fact that we are targeting so many people, so many 
different audiences is a challenge. I think, however, we've 
risen to the challenge and the amount is a good amount.
    Mrs. Maloney. Could you use more money for the paid ad 
campaign and if so how much? And likewise, is there a danger of 
backlash? Sometimes people become saturated from exposure and 
do you have any type of mechanism to monitor for such a 
backlash and modify a campaign if necessary?
    Ms. Dukes. The first part of your question, we have given a 
lot of thought: Do we need any more money and how much more, et 
cetera. So, we've run the models, the saturation models and we 
find that with the messaging that is in production right now, 
we would not reach a saturation point until we spent another 
$54 million. Do we need that additional $54 million? What about 
the backlash? We think we're in a good place because our media 
plan tells us that we're going to reach 99 percent of diverse 
America, 97 percent of Hispanics, 99 percent of African 
Americans, 97 percent of Asians and 92 percent of American 
Indian-Alaska natives.
    So, I think we're at the point where we might run into 
diminishing returns if we spent much more money, that people 
would turn off, that the messaging would become wallpaper and 
really wouldn't be accomplishing what we need for it to 
accomplish. If you go even further than that you begin to 
create annoyance and then people are just going to walk away 
from it. I'm sick of hearing about it. I don't want anything to 
do with it.
    So, it is delicate. Like I said, because of our reach 
numbers we think we're in a pretty good place.
    Mrs. Maloney. I understand that a great deal of the media 
buys for the census campaign need to be made during the first 
week of October. Can you explain why is that and how many of 
the buys need to be made at that time and what is the effect of 
the uncertainty of the funding? As I mentioned earlier, we have 
a $1.7 billion shortfall in the Senate package.
    Ms. Dukes. We need to buy just about all of our media for 
the educational phase come October 1 and we need to start 
buying for the motivational phase which begins January-February 
and the reason for this is our inventory, media inventory, is 
very, very tight, extremely tight. It's a big buying time 
because it's around the holidays. We're also entering campaigns 
and we know that the networks are changing their programming 
and so because of our media analyses, we know exactly what kind 
of programming we need to buy to reach specific target 
audiences.
    That programming is becoming more limited. More and more 
people are going to want to buy it. If we're not able to buy it 
come October, then as Dr. Prewitt mentioned earlier, we may 
find ourselves in the same situation we were in in 1990, where 
we have the messaging but we don't have the media available to 
run in the right place in order to reach the right people at 
the right time. And so, we might be wasting money if we can't 
buy the right media.
    Mrs. Maloney. Why October for the education phase?
    Ms. Dukes. I'm sorry. The education phase begins in 
November and we need to buy the media at least a month in 
advance, preferably 2 to 3 months in advance, so we can get the 
inventory we really, really want that we know is really, really 
perfect to talk to our audience.
    Mrs. Maloney. You go education stage, the motivation stage.
    Ms. Dukes. Correct, then nonresponse followup.
    Mrs. Maloney. You were talking about the critical buy list 
and you say part of your advertising campaign will include 
these stations and add, Mr. Chisholm, on any of these 
questions. How do stations get on that list and what is the 
purpose of those buys, the critical buy list?
    Ms. Dukes. These stations get on the list directly from the 
regional offices. In order to ensure that the regional offices 
are going to have the grass roots support that they need from 
media in addition to the air cover we're providing from the 
national program, we've asked them to tell us what media in 
their particular regions are especially important or 
appropriate to their particular cities. They submit that list 
to us and after we analyze and make sure it's not a bankrupt 
station, for example, we'll add them to the list.
    Mrs. Maloney. My time is up. I know there are other people 
who want to question.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Ms. Dukes, what is an independently managed Young and Rubicam 
company?
    Ms. Dukes. It's a company that is owned by Young and 
Rubicam but makes all of their own management decisions, 
hiring, strategy.
    Mr. Davis of Illinois. In the instances where these are the 
subcontractors in a sense, were there no existing companies 
made up of the groups for which these companies now have 
primary responsibilities?
    Ms. Dukes. Were there no other potential subcontractors?
    Mr. Davis of Illinois. Yes. Were there, for example, Latino 
owned and managed companies that were not a part of Young and 
Rubicam that were looked at in the process of deciding who the 
subcontractors would become?
    Ms. Dukes. Because our approach from the very beginning was 
to create an integrated program based on a universally 
appealing strategy and because of our past experience in 
working with the subsidiary firms that belonged to Young and 
Rubicam, we went into the pitch responding to the RFP with 
these agencies and so we did not consider agencies outside the 
network who had the expertise inside the network.
    Mr. Chisholm. Congressman, I would like to add something to 
that. The Bravo Group, which is an independently owned 
organization of Young and Rubicam, is the foremost Hispanic 
advertising agencies in the country, as well as Kang and Lee.
    Mr. Davis of Illinois. I appreciate that. I just have some 
concerns about bonding. I have some concerns about broadly 
based opportunities. I have those kind of concerns, especially 
from a small business perspective. But let me just ask you, you 
indicated that there were five other agencies associated with 
your company in terms of the work that you're going to be 
doing?
    Mr. Chisholm. No, what I mentioned was that there were five 
agencies who were asked to pitch the African-American portion 
of the census contract through Y&R.
    Mr. Davis of Illinois. OK. So there were five who applied 
and your agency was the one that was chosen.
    Mr. Chisholm. Yes.
    Mr. Davis of Illinois. I know that when we start talking 
about media buys, oftentimes we're looking at where do we get 
the most bang for our buck in terms of the numbers of people 
that we reach. Are there other considerations in terms of the 
kind of programming that is going on, as well as the number of 
people that we reach?
    Mr. Chisholm. Are you referring to different types of media 
forms?
    Mr. Davis of Illinois. Some people may listen to a radio 
station that plays music all day. They reach a certain number 
of people. There may be another station that has a talk format 
and they may not reach as many people but maybe people are 
paying more attention to what's going on. And so maybe the 
impact might be greater on one population group in terms of----
    Mr. Chisholm. You're absolutely right. That particularly is 
true in the African-American community, where you may have 
small pockets of listeners or readers to a publication, in this 
case black newspapers. The impact that it has on the greater is 
much more significant than just the sheer numbers.
    Mr. Davis of Illinois. You mentioned the black newspapers. 
Every time I'm in contact with the National Publishers 
Association, the black newspaper group, they're always of the 
opinion that they are passed over, that somehow or another 
they're not viewed as having the impact on the community that 
they feel that they actually have, and therefore, they feel 
that they're neglected and overlooked when there are 
advertising opportunities.
    Mr. Chisholm. We are fully aware of that and we, as an 
organization, tend to agree with them that they are not looked 
upon as having impact in the marketplace. As it relates to the 
census, as it relates to census 2000, we believe that they are 
a critical part of delivering the message because of who they 
are and also because of what they represent. I'll even take 
that a step further. And that media will do one thing and what 
we are trying to do through the media is to create the word of 
mouth within the marketplace. We think that that is going to 
be--that is critical to the success of this program and we 
think that media, and in this case black newspapers 
particularly, as well as black radio, will be significant in 
igniting that word of mouth communications within the 
marketplace.
    Mr. Davis of Illinois. Thank you very much. I'll be back.
    Mrs. Maloney. Can I ask a followup to Mr. Chisholm on that. 
You mentioned the word of mouth over and over again and why is 
the word of mouth such an important component and if it is an 
important component as you're saying, how can we leverage that 
more to work better for us, the word of mouth? Is this 
different from the other communities we're trying to reach, the 
word of mouth? Could you elaborate a little bit?
    Mr. Chisholm. I think word of mouth is extremely important. 
We think word of mouth is extremely important as it relates to 
the African community. Often messages are filtered and often 
thought of as possibly a top-down kind of communications. It 
may come from any aspect of the community. Often those that are 
not considered to be opinion leaders in the marketplace or 
thought of as being opinion formers in the marketplace are 
often those individuals who ignite a particular opinion or 
provide a confirmation of interests or fact. So we think, and 
again I think that this is more endemic to the African-American 
marketplace than it is the general market or even the Asian, as 
well as Hispanic marketplace, we think this is extremely 
important as it relates to the African-American marketplace.
    Mrs. Maloney. How do we leverage that?
    Mr. Chisholm. You ignite it through the media. You ignite 
it through involvement and participation and support from the 
Congressional Black Caucus. You ignite it and leverage it 
through United Negro College Fund or the National Urban League, 
organizations like that, but you also ignite it through Billy 
Myers, who lives on 48th Street and is the guy to know in the 
marketplace. So, it's our understanding as to how you do ignite 
those kinds of things that creates this positive word of mouth, 
and that's exactly what we want to do for the census.
    Mrs. Maloney. Thank you.
    Mr. Miller. I think we have time for one quick round of 
questions. First of all, explain to me again the educational 
component which starts in November and how much is going to be 
spent on that and why would we want to do that in November or 
December because of the holiday season and so much other 
competition, rather just jumping full speed into it in January?
    Ms. Dukes. The Census Bureau has research that shows the 
greater awareness and the greater the knowledge, the higher the 
likelihood for participation, and so we are using the 
advertising time from November into January as an opportunity 
to begin to seed information, an educational aspect to what is 
the census all about and why should it be important to me. It's 
really paving the way. It's setting the stage for the 
motivational message which will begin in January. So, the 
advertising will continue and it's building up and it's again 
using best practices.
    Mr. Miller. Isn't it difficult in November and December to 
get your message out with the----
    Ms. Dukes. Which is why we need the money October 1 so we 
can buy the inventory that we need.
    Mr. Miller. We're going to work in the money by October 1. 
The question is that there is so much competition for messages 
in the media during the holiday season.
    Ms. Dukes. The option would be not to do any at all and 
that would be worse.
    Mr. Miller. Could you concentrate it more in January?
    Ms. Dukes. Then I think you're looking at the saturation 
level, where you've got too much messaging going on and people 
turn it off. So, it was our best professional judgment that we 
needed to do an education program in spite of the heavy traffic 
that will be carried on in terms of messaging. There is a 
finite amount of media and so we will be part of that finite 
amount of media and we think, again, the professional judgment 
says that that is a stronger way to go than if we were to try 
and do too much messaging, confusing the issues, in a shorter 
period of time.
    Mr. Miller. Are you going to use celebrities in any way?
    Ms. Dukes. We are not planning to use celebrities in the 
paid advertising. We are looking at opportunities for using 
appropriate celebrity spokespeople in what we call the added 
value opportunities or in some PSAs that we know we're going to 
be able to get.
    Mr. Miller. How about Mr. Chisholm? It's that word of mouth 
question again.
    Mr. Chisholm. Our intention is not to use and to identify a 
paid celebrity. In other words, we may consider a voiceover of 
a well known but he will not necessarily be identified. That 
was one of the things that we found in research, that there's a 
kind of a weakening of credibility when the message is coming 
from a celebrity or a specific type of celebrity.
    Mr. Miller. The 1,700 people you interviewed, these were 
focus groups or did you do more of a random sample?
    Ms. Dukes. It was a combination of quantitative and 
qualitative. We had about 30 respondents in a room and they 
were exposed to advertising with like a television clicker and 
after they were exposed to the advertising, they went through a 
series of questions.
    Mr. Miller. The 1,700 people were all focus group people?
    Ms. Dukes. No, because the 1,700 participated in the 
clicking and quantitative. About half that we then probed in a 
qualitative session.
    Mr. Miller. And then you would have a separate one, say for 
the Haitian community focus group?
    Ms. Dukes. Yes.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. In the forum that I went to, they did focus 
groups and guess what group did the worst? Elected officials. 
No one wanted to listen to them on the census. Anyway, you said 
in your testimony that for every one unit increase in civic 
community activity, there was a 30 percent increase in the 
predicted odds of mailing back a form. I mean, I find that 
really interesting and could you elaborate on that?
    Ms. Dukes. It goes back to the conversation that Dr. 
Prewitt was having regarding civic engagement. When we were 
first facing this challenge, we knew that it would be easy to 
target audiences by demographics and by ethnicity but the real 
issue is how likely is a person to fill out that census form? 
There was no actual research that answered that question and so 
we set about to build a model that would help us segment the 
audience on how likely they are to complete the form. We used 
civic engagement or civic participation as the basis of our 
model. We believed in it because when we looked at the response 
rate from the 1990 census, 60 percent, it correlated--we 
initially broke the likelihood spectrum into five segments and 
that 65 percent response rate correlated with about 63 percent 
that were on the right-hand side, the most likely side of the 
spectrum. The other validation or encouragement, if you will, 
is that the demographics of the populations or the audiences on 
the least likely end of the spectrum happened to match 
precisely the demographics of those who were hardest to reach, 
hardest to count and part of the undercount from the 1990 
census. So, we felt like we had a pretty good thing going here. 
Then, when we went into the dress rehearsal, that model was 
validated. It's not statistical. I'm not a statistician so I 
really can't speak to it in depth but Nancy Bates from the 
Census Bureau actually worked on research testing the 
effectiveness of the dress rehearsal program and she has a full 
report and she can speak to this in detail about the 
correlation between civic engagement and likelihood to 
participate.
    Mrs. Maloney. I understand that Young and Rubicam retains 
the rights to any intellectual property developed in connection 
with the ad campaign and I gather from your testimony that 
you've already copyrighted the likelihood spectrum? Is that 
right?
    Ms. Dukes. That's right. We trademarked it.
    Mrs. Maloney. Is this usual for your contracts and do you 
have any idea how much revenue you may generate from these 
rights?
    Ms. Dukes. To be honest, we don't expect to generate any 
revenue. We don't expect to sell the likelihood spectrum. It 
was really a competitive issue and just to clarify, not all the 
intellectual property belongs to us. The Census Bureau is 
paying for our services and so they have ownership of some 
intellectual property. It happened that the likelihood spectrum 
was developed on our time as we went into the request for 
proposal.
    Mrs. Maloney. Well, I would like to know when we can see--I 
understand you're still working--when are the ads going to be 
finalized. I thought a lot of your ads were just sensational. I 
think other Members of Congress would like to see them.
    But I'd really like to ask Mr. Chisholm, in your testimony 
you said that you got many valuable experiences from your work 
in the 1990 census and you said it was a very valuable tool and 
I'd like to know in what way. What specific lessons have you 
learned that will be helpful to us in 2000, and how would you 
compare 1990 to 2000 overall, the advantages of paid 
advertising versus what you were working on then, which was a 
public service announcement type of campaign?
    Mr. Chisholm. I think there were two key things that came 
out of this. One was that a solid strategy across all groups, 
be it African-American, Hispanic, Asian, and diverse America, 
was essential. Unfortunately, though, in the 1990 census, each 
group pretty much did whatever they wanted to do in terms of 
the strategy. I believe that a single-minded strategy, as in 
the case of what we're doing here, is clearly essential.
    That was one key thing. The other key thing was the nonpaid 
media. I think it had a significant impact on the success of 
the census. The reason for that is in the case of the African-
American marketplace, they pretty much did not participate to 
the extent in which they will be participating now, obviously 
because they're being paid. But that was really critical in 
igniting communications within the African-American marketplace 
and you saw that pretty much through all ethnic groups. The 
other thing is that from a donated perspective, we were at the 
liberty of the media. They ran the activity when they had the 
time available to run the activity, as opposed to the time 
where we had large numbers of audiences and/or the right 
audiences listening and/or watching a particular show or 
reading a particular publication.
    Mrs. Maloney. My time is up. I find this fascinating. I 
could ask questions all day.
    Mr. Miller. Me too. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
During Dr. Prewitt's testimony, he talked about the concept of 
civic responsibility that I find intriguing partly because it 
mirrors feelings of my own in terms of the whole business of 
rights and responsibilities, and we often talk about rights and 
not enough, I don't think, about responsibilities. Will this 
sail with the real hard to count population group as much as 
the other side? What is it that you can expect to get from 
participation?
    Mr. Chisholm. I think so because of two reasons. One 
because of the message that we're delivering. The message is 
being delivered from me, African-American male talking to 
African-American female. We've personalized the message. So, 
it's the message itself and it's also the messenger. Our 
ability to galvanize African-American newspapers, galvanize 
African-American radio stations to deliver that message also 
adds to the truth and the value.
    In addition to that, in looking at this likelihood 
spectrum, and we did this likelihood spectrum, for the African-
American component as well, one of the things that we realized 
was that participation in church was one of the key indicators 
here and so our goal will also be to utilize the church and 
their forms of communications to the extent which we can to 
help deliver the message.
    Mr. Davis of Illinois. I'm looking because I don't regard, 
for example, all African Americans as being hard to count. I 
don't regard all Latinos as being hard to count. I think this 
business of being hard to count, much of it is as much a part 
of the socioeconomic status of people as it is their ethnic 
background and all of that. As a matter of fact, I think it's 
more of that. And I guess I'm really trying to see how we 
separate out. I would expect the mainstream message, though, to 
touch certain percentages of these population groups.
    Ms. Dukes. It absolutely will. That's why we call it the 
message to diverse America. It is reaching everyone who 
consumes English media, English speaking media, and you're 
right. Not all African Americans, not all Hispanics, not all 
Asians are in that least likely category. In fact, we ran the 
likelihood spectrum against each target audience and say, for 
example, we believed that about 80 percent of American Indians 
fall into the least likely, whereas only, I think, 46 percent 
of African Americans fall into the least likely. What you will 
say, though, is that the least likely does skew to minorities. 
It also skews to lower educated, renters, lower income, blue 
collar, so you're right about the socioeconomic aspect of it as 
well, which goes to the point of how appropriate it is to look 
at the audience based on their likelihood to participate, as 
opposed to their demographics only.
    Mr. Davis of Illinois. Does that mean that I can expect the 
targeted subcontractors to spend more of their time with the 
group within their populations that really are the most 
difficult to reach, the untouchables, the unreachables, the 
uneducated, the whatevers?
    Ms. Dukes. Yes.
    Mr. Chisholm. Yes. That's how the message is going to be 
driven but the message may be delivered through the----
    Mr. Davis of Illinois. Traditional.
    Mr. Chisholm. Yes.
    Mr. Davis of Illinois. Let me ask one other question and 
I'm really done. And maybe it should have gone to Dr. Prewitt 
but you've mentioned this word of mouth business. It seems to 
me that much of word of mouth comes from what I call community 
organizations, community groups, community activism, 
neighborhood associations that really generate the momentum and 
enthusiasm in a community for something to work. Is there a way 
to make use of those as part of the advertising campaign, I 
guess is my question?
    Mr. Chisholm. The answer is yes, it is our intention to 
continue to have conversations on a local market basis. That is 
not our responsibility. That is our commitment to ensure that 
there is an understanding of how this mechanism works and to 
the extent which we can facilitate igniting the word of mouth, 
we will do that.
    Ms. Dukes. I might add that the same is true for the Bravo 
Group and for G&G and for Kang and Lee. All of them have 
ongoing dialog with important organizations within their ethnic 
communities.
    Mr. Davis of Illinois. Thank you both very much. I thank 
you, Mr. Chairman.
    Mr. Miller. Let me ask two very quick questions and get two 
very quick answers. When will ads be available for public 
review? I know the hearing staff and Mrs. Maloney were able to 
see them recently. The other question is, are you involved in 
trying to get any of the free advertising, pro bono type ads, 
any effort in that way?
    Ms. Dukes. We will be showing rough cuts and some print ad 
layouts as early as next week to the Census Bureau and to the 
Department of Commerce. We will be showing finals. We should 
have final work in the middle of September so that will be when 
it will be available for public consumption. And in terms of 
pro bono, free advertising, we're negotiating with all of our 
media to get free space or additional activities from them, 
whether it's network, radio, print, billboards, whatever. So, 
we are trying to extend, in fact it's our goal, to make the $65 
million media budget really work like $100 million being spent 
in media alone.
    Mr. Miller. $65 million? I thought we were spending $106 
million.
    Ms. Dukes. I'm sorry. I was just thinking of this fiscal 
2000.
    Mr. Miller. Thank you. Thank you both for being here. It 
was very interesting. I wish we had more time. I look forward 
to seeing the finished result here in a few months. Thank you.
    If Mr. Zunigha would come forward and remain standing.
    [Witness sworn.]
    Mr. Miller. Thank you very much. Have a seat. I appreciate 
very much your joining us here today.

 STATEMENT OF CURTIS ZUNIGHA, CENSUS ADVISORY COMMITTEE ON THE 
         AMERICAN INDIAN AND ALASKA NATIVE POPULATIONS

    Mr. Zunigha. If I may, first of all, in a traditional way 
here, I want to stand before you.
    [Speaks in Lenape.]
    Mr. Zunigha. I've just spoken words in the language of the 
Lenape or the Delaware Indians. They're words of greeting, well 
wishes to all of you here and I stand before you as a former 
chief of the Delaware Tribe of Indians, a lawyer for our tribal 
sovereignty. When I speak to you today, all of you here, I do 
so in a way that brings forward our relationship that goes back 
to the year 1778, when the United States of America and the 
Congress approved and entered into a treaty, the first Indian 
treaty in the history of this country with the Delaware Tribe 
of Indians.
    So, we're America's first federally recognized tribe. So, 
if you'll forgive a breach of protocol, I'm going to approach 
you, Mr. Chairman, and extend my hand in friendship and when I 
do so, I renew and refresh the relations that go all the way 
back before this was the Nation's Capital, before this city was 
the Nation's Capital. Before there was ever a first census, 
there were the Delawares of the United States of America 
through the Congress. I just want to say thank you very much 
for having this hearing and inviting me here.
    Now, do you want me to go ahead and just read my statement 
into the record? Is that appropriate?
    Mr. Miller. If you'd like to. Summarize and we will include 
the entire statement in the official record. If you'd like to 
summarize and then we'll proceed to some questions and more 
general discussion. That might be a more productive way.
    Mr. Zunigha. Thank you, Mr. Chairman. It's Zunigha, Curtis 
Zunigha. I am a Delaware/Isleta Pueblo Indian from Oklahoma and 
I'm serving on the Advisory Committee for American Indian and 
Alaska Native Populations. I was appointed in November 1977. I 
bring with me not only a background in service and tribal 
government and an awareness of tribal government issues, but 
also I have an extensive background in media and public 
relations. So that was kind of the specialty area I guess that 
I had a lot of interest in. And then, when I came on board, I 
was encouraged by my fellow committee members to kind of take 
on the publicity promotions, advertising, as a special area of 
focus group in our endeavor to offer advice to the Census 
Bureau.
    Now, you asked me to comment on three different areas and 
my written comments go into some detail. I'll try to again 
summarize them, first of all, the ad campaign and dress 
rehearsal.
    In the beginning when the committee was first hit with the 
proposed plan, it seemed inadequate to meet, I guess, the 
diversity of cultures and geography in Indian country. I think 
one of the problems, however, was the committee members not 
being completely savvy in advertising and marketing approaches 
and realizing that this was just the dress rehearsal. But, I 
think there was some very valid comments about some of the 
imagery and how it was going to be presented and used, and as I 
looked at the report on the dress rehearsal effectiveness of 
advertising, I saw some numbers there and I wasn't particularly 
impressed with them, but then again, I suppose that's what 
dress rehearsals are for, to identify the wrinkles and get them 
ironed out.
    So, I went to Menominee and I observed some of the 
discussions with focus groups and even talked to a few people, 
including the chairman of the Menominee reservation, 
Apesahnequat, my Indian brother, and we talked about some of 
these things and ways of bringing forward improvements. And, 
it's trying to target advertising--see, everyone wants to have 
their own special advertising approach, you know, featuring 
their tribe or their region of the country. You've got Indian 
Country broken into Northern Plains, Eastern Woodlands, 
Southwest, Pacific Northwest, Alaska Natives, so they were kind 
of wanting some imagery that spoke more to them. And when I 
looked at the numbers of dress rehearsal advertising, again, I 
was not that impressed with the numbers but I think from all of 
that came some comments from our committee then that they were 
not completely impressed with and had even kind of a marginal 
rating of satisfaction with the initial campaign that was 
presented. But it was because, you know, you've got to do 
things differently in Indian Country and the outreach is not a 
textbook Madison Avenue approach to advertising.
    And I think when our committee had an opportunity to offer 
our own ideas, one of the problems that we found was not 
necessarily in the receptiveness of G&G, the Indian contractor 
and Y&R and the Census Bureau, it was the mechanism in which we 
communicated. When I talked to Michael Gray with the 
subcontracting firm G&G in Albuquerque, I said Michael, how 
come we haven't been talking more and he's saying well our 
contractual arrangement is such that I work for Y&R. Y&R works 
for Census Bureau and there's a certain communications 
hierarchy and dynamic and management structure in everything, 
and I thought well, the chairman of our committee is two blocks 
down the road. He's a professor at the University of New Mexico 
and yet you guys haven't gotten together just for lunch to 
chat. He can't give you orders there at lunch but at least we 
can sort of circumvent this lengthy and what I call vertically 
oriented chain of command and chain of communication. And so I 
brought that forward at a meeting, kind of surprised the Census 
Bureau people when I told them, you know, that the way of 
communicating wasn't working fast and efficient to address our 
particular needs.
    So, those were some of the things I think that we had some 
problems with. We wanted to see more diverse imagery rather 
than a one-size-fits-all ad and we wanted greater coverage in 
the ad buys out in the market and then, of course, consistent 
use of phrasing or nomenclature. A lot of people get confused. 
Do I call you a native American, do I call you Indian? What's 
the right term. Well, obviously the right term is, if you 
really want to get it right, I'm a Lenape. In our language it's 
Lenape. Our English name is Delaware. Nonetheless, it was 
approved that it would be American Indian and Alaska Native.
    A couple of other things. As far as this marginal level of 
satisfaction with the ad campaign, it had to do with did these 
ads speak to the urban Indian population, which is a 
significant part of Indian Country, even though we've only got 
about 2 million Indians in this country. A lot of them live in 
the cities. How are you going to do this outreach to Indian 
Country when you have images of an elder out here on the 
reservation? How is it going to speak to them? A lot of things 
that I bring up, I'm speaking on behalf of our entire 
committee, which has a diversity of opinion themselves.
    Now, I want to say that regarding the receptiveness of 
Census Bureau and Young and Rubicam to our committee's 
involvement and the advertising plan, that is an area where I 
think I can really give my highest remarks in this testimony 
today because they listened and I think Michael Gray with his 
company was saying well, yeah, you know in many ways they're 
right about this communications dynamic. How can we find a way 
of having our advice and our input get to them in a more timely 
fashion and save a lot of time talking about these things and 
trying to circumvent problems before you spend a lot of time 
and creative and production and have something out there that 
the committee is going to be very critical of? I think we have 
changed the communication dynamic such that it has brought some 
rather remarkable improvements in the last 6 to 8 months 
certainly. I think since the Census Bureau has really kicked us 
into gear, both from the partnership side and advertising side, 
there's been a lot more product out there.
    On the advertising side, I have been able to be aware of 
production meetings and discussions on now a more diverse 
imagery, where they're going to be going to different parts of 
Indian Country and selecting certain reservations and picking 
someone, an elder or a child from that reservation, shooting it 
on that background or in this pocket of Indian Country, in 
different regions, to show this diversity because in Indian 
Country it's kind of like saying Europe, but Spain is so 
decidedly different from Italy, which is so decidedly different 
from Scotland. That's what Indian Country was looking for, was 
something that spoke a little bit more at least to their region 
of who they are.
    So, I'm seeing these things come out in the ad campaign and 
I think, because the Census Bureau and Y&R was open to changing 
the communication dynamic and developing a mechanism to improve 
our input, that it has eased any apprehension that some of my 
fellow committee members may have had. The rating level for G&G 
has been upgraded. I think it will continue to be upgraded the 
more we see what goes on, but I want to stress, however, that 
based on the numbers that we saw, Indian people are really high 
as far as percentage of those not likely to respond to the mail 
out of a form and mail it back to us kind of approach. And 
therefore, no matter how perfect the ad campaign is, you've 
still got to educate the people and give them the power to 
understand and fulfill their partnership responsibilities, 
where they're telling their own people through tribal 
government and community leaders that the census is important 
for Indian Country and if you can change the numbers of those 
who are more likely to respond to the census form, you can 
elevate those numbers, then the money you're already spending 
over here on advertising is going to affect more people. I 
mean, the advertising campaign, that's locked down. That's a 
go. I'm all for that but we want to improve things on the 
partnership and education side. I think that's going to be the 
real key.
    I've noticed some improvements with the Census Bureau. I 
support that all the way and I've been encouraging and 
challenging tribal governments to fulfill their part of the 
partnership responsibility.
    My comments, Mr. Chairman, in here I will also say that 
quite honestly, based on the government to government 
relationship, some of the smaller tribes that I've talked to 
have said, hey, this is almost like an unfunded mandate. You 
want to develop a partnership and yet we don't have the savvy 
in many cases, we don't have the staff, we don't even have the 
computer to look at their CD-roms or to communicate or do 
things like this. We need help. We need some funding and no 
matter which pocket of the Federal Government it may come from, 
Mr. Chairman, I still am a proponent of finding some ways of 
empowering tribal governments to fulfill their partnership 
responsibilities.
    So very briefly, if you consider that brief, that is the 
net effect of my comments on this testimony. I'd be glad to 
answer any questions and I really wish you would allow me to 
make a comment on the civic duty or civic responsibility and 
patriotic duty issue, but at your discretion, Mr. Chairman.
    Mr. Miller. You want to make a brief comment about that? I 
think we all agree.
    Mr. Zunigha. Thank you. Unlike other pockets of this 
population, Mr. Chairman, I don't think the civic duty and 
patriotic responsibility, all that kind of thing, is going to 
work in Indian Country. And I say that, sir, because I'll think 
back just one century ago, 100 years ago, in preparation for 
the 1900 census. That was a period, Mr. Chairman, of what we 
call the allotment era. Many Federal acts were passed to 
ostensibly help out the poor red man but what it did is it 
broke up tribal governments, abolished tribal courts and took 
the community or the tribe of the people as a whole and made 
individual Indians out of them and took the tribal shares of 
land and broke them up into 160-acre plots, allotments, and 
gave them out to each individual Indian. In order to do that, 
the government had to bring them forward. They had to conduct 
the so-called censuses or enrollments. Whatever you call it, 
it's lining up a bunch of Indians and doing a head count, 
getting their name, who are you, where do you live, who's your 
family, ostensibly to help them out but what it did is it gives 
them land but then there was a whole bunch of surplus land 
which they decided to open up to anybody else. Well, that was 
land that was supposed to have been given by treaty. After all 
of that period of all of these different head counts, in 1907, 
there was Statehood for Oklahoma. Hey, that was supposed to be 
the Indian State by treaty. So it's not that long ago that we 
have these lessons of what happened to us. It wasn't until the 
Roosevelt administration in the 1934 Indian Reorganization Act 
that sought to make up for quite clearly, Mr. Chairman, the 
wrongs that were done to Indians and in my opinion, a violation 
of certain treaties which are certainly a high law of the land.
    So Indian Country, you know, is suspect about this whole 
thing anyway and so, while I'm challenging the tribes and I'm 
going to these tribal government conferences and I'm 
encouraging and challenging tribes to become involved in the 
census, to become partners and to work hard and make the census 
work for them to empower themselves, which is certainly some of 
the message that comes out in advertising, I ask, I dare say I 
demand of the Census Bureau, of the Congress, U.S. Government 
that all of the politics that surround the census is once again 
not designed to do a head count of Indians and figure out some 
way of getting to their resources. I'm saying this because 
that's what a lot of the old-timers still remind me about with 
these so-called head counts and what was the story then, and 
they're suspicious. There's sometimes anti-Indian legislation 
that is developing in today's Congress regarding taxation, 
jurisdiction, these kinds of things.
    So, we want to know that the Federal Government's message 
and that of all branches of the Federal Government is in good 
faith and that this whole effort is not to in some way to get 
to our resources or to infringe in any way on our tribal 
government and our status as Indian people, our legal and 
political status. They worry about that kind of thing. That's 
the spin on civic duty that I wanted to express here.
    [The prepared statement of Mr. Zunigha follows:]
    [GRAPHIC] [TIFF OMITTED]61550.026
    
    [GRAPHIC] [TIFF OMITTED]61550.027
    
    [GRAPHIC] [TIFF OMITTED]61550.028
    
    [GRAPHIC] [TIFF OMITTED]61550.029
    
    Mr. Miller. Thank you. Let me begin with some questions and 
first of all, let me say thank you very much for coming all the 
way from Oklahoma and also for your service on the advisory 
committee. The advisory committee has been very crucial. I'm 
sure Dr. Prewitt thanks you but we in Congress thank you for 
your participation. You don't get paid for that, but it's very 
important that we have all areas represented.
    As you may be aware, this subcommittee is very interested 
in Indian population counts and we had a hearing specifically 
on this issue in Phoenix in January and we had four Indian 
tribal leaders who testified before us then. Just as Dr. 
Prewitt said he found out a lot going to Memphis, we learn a 
lot when we visit, whether it's Miami, Wisconsin, or Arizona.
    You mentioned this issue of distrust because of historic 
wrongs. How much of that can we overcome in this census? You 
are the most undercounted population, I believe, within the 
census. How do we overcome it if advertising is not going to do 
it?
    Mr. Zunigha. Again, I think advertising is only going to 
prompt those who are pretty much most likely to respond to the 
forms anyway. The answer comes from the tribal government 
itself. We're hardest on our own kind, but I'll tell you, if it 
comes from the tribal government in a partnership with the U.S. 
Government, and the educational process explains why the census 
is important to the tribe and how they derive much of their 
Federal funding through formulas based on socioeconomic 
demographic statistics and that their tribal jurisdiction and 
other kinds of things are tied to declarations that are made 
during the census, I think that's how we're going to overcome 
that. The message has to come from within the tribal leaders 
themselves so they're the first wave that you have to get on 
board and I don't think you're going to get every tribe. You've 
got some of those six nations' people up in New York who are 
just refusing Federal funds anyway. They don't want to get too 
tied in. I don't know that you're going to completely get over 
it, but I think because the government-to-government 
relationship of tribes and that legal and political status is 
directly tied to their relationship through Bureau of Indian 
Affairs, the tribal shares they get, that's what's going to 
work is when it comes from the tribe.
    Mr. Miller. How have you personally had an impact, do you 
think, to the advisory committee? You said there's been these 
changes over the past year, couple of years or so. You speak 
positively and I'm very glad to hear that. Do you feel your 
input really has been listened to by both the Bureau and by Y&R 
and whoever and can you give me specific illustrations of 
things you point out and you've seen a response to?
    Mr. Zunigha. Well, I'm apparently known as being a somewhat 
outspoken individual and so when I say things that are 
sometimes brutally honest. I do so in order to put the issue on 
the table. We know in any great social change, it's the voice 
of the conscious of the people, perhaps that rebel or maverick 
or rabble rouser out there that's raising their voice and 
putting that issue right in their face, but I've also found out 
it's working in partnership. It's then every time you offer a 
problem, offering a solution, a proposed solution, and if the 
other side will sit there and listen and engage in a way of 
maybe trying another approach to solving it, well, that's what 
I'm doing here with these folks. Even though, at times, they 
kind of stop for a minute and they kind of give me this look 
like I can't believe you said that about us, at the same time I 
come forward with some ideas and they are responding, yes, sir, 
particularly in regards to such things as the multiple images, 
the change in the communication dynamic between Y&R, Census 
Bureau, advisory committee, and Indian population. I dare say I 
expect more of that to happen. It's important. Again, I think 
Y&R and I've talked with Terry several times, I've heard her 
say maybe we should rethink our approach and it apparently is 
paying off because they are responding.
    Mr. Miller. Thank you very much for your contribution, 
making this a successful census. Mrs. Maloney.
    Mrs. Maloney. Thank you. Thank you for the tribal greeting 
and for your very sensitive testimony and really a history 
lesson in why there is such distrust from the nations of our 
government and justifiably so.
    I would like to ask a question about the dress rehearsal 
and I understand that one of the biggest criticisms that came 
out of that advertising campaign was that they didn't have the 
ads in the right places? Specifically the tribal members and 
the Menominee had wanted to suggest the places where the 
advertising should take place, and would you elaborate on that 
and are you confident that it will not happen in the 2000 
census, that this type of issue will be addressed and that 
tribes will be listened to where they think the advertising 
should take place?
    Mr. Zunigha. I think that the learning curve changes 
dramatically when you go in with a good faith effort to try to 
do something for a target market and something comes back to 
you that says you're way off target and you want to know why 
and you want to know what to do about it. I think that was the 
case in Menominee. Again, I did talk with Apesahnequat, the 
chairman of the Menominees. He's like a professional actor too. 
He's got this incredible presence and, you know, I know that he 
felt like, hey, listen to what we have to say. We know our 
community and why don't you guys, you know, why don't you guys 
use me to help reach out to talk to my own people. I think that 
was something once they instituted a plan, they were going to 
go ahead and go through with it.
    With regards to the ad buys, I'm not that familiar enough 
with that market in Menominee to judge the ad buys that they 
did. Any comments that may have come from some of the community 
leaders, I think, only tells G&G and Y&R that that kind of 
collaboration is important and I see it happening. I see it 
opening up more and more, especially in all of the other 
regions too. G&G has increased its staff to do more of this 
work out in each of the regions to get more research done on 
every little possible way of reaching out to Indian Country 
because classic or traditional methods in the non-Indian world 
are just not the right approach in Indian Country. So, you 
communicate with your Indian folks. G&G is from Albuquerque. As 
a matter of fact, Michael and his family, they are Blackfeet 
from Montana. So you still have to go over here to Menominee or 
you have to go down to Cherokee, NC and understand that dynamic 
and talk with the local people first before you really take 
off. I see that now changing in that direction.
    Mrs. Maloney. As a member of the advisory committee have 
you found this structure to be an effective one? Is it meeting 
its goals?
    Mr. Zunigha. Well, now that they've changed things around, 
yes. It's helped. I spent 7 years in the United States Air 
Force and I ran a tribal government for 4 years. I know about 
communications and management hierarchy and you know, when I 
first came to the Census Bureau, I thought, oh, my God, we're 
in trouble. But I've seen a lot of changes and it takes 
standing up and being kind of vocal about it but explaining why 
it works and offering not just to give criticism but to roll up 
your sleeves and join in and make the change or transition 
happen and so it's happening now. It hasn't hurt the Census 
Bureau at all, I think. I'm pleased that they've made some 
efforts in that direction. Yes, ma'am, it's improved.
    Mrs. Maloney. Have you seen any of the ads for the Indian 
nations, any of the print and media?
    Mr. Zunigha. Yes. Not only that but I've been privileged 
with being able to speak with some of the producers and take a 
look at some of the proposed creative material and you know, 
just offer some of my own comments in support.
    Mrs. Maloney. What do you think of it?
    Mr. Zunigha. I think it's dramatically improved, especially 
in the sense that they're going out to these different parts of 
Indian Country now and using the local people as models and I 
mean, my goodness, this week or even as we speak, they're up in 
Montana right now.
    Mrs. Maloney. In other words, they're using Indian leaders 
from Montana, New York, Oklahoma in their ads to regionalize 
their approach?
    Mr. Zunigha. No, ma'am, not leaders. They're using elders 
and children as the focal images.
    Mrs. Maloney. Targeted for the specific tribes?
    Mr. Zunigha. Well, ma'am, for the Northern Plains, they are 
using the Blackfeet reservation and using some Blackfeet people 
up there and that look will kind of cover that whole Northern 
Plains region. That's something more identifiable but then 
they'll change it when they go down to Albuquerque or Cherokee, 
NC, or Seattle. Or up in Alaska. The Alaska native is a little 
bit different breed of native folks there and they need their 
own imagery and their own push, but that is a separate part of 
it and I'm glad of that.
    Mrs. Maloney. There were 1 in 12 Indians, American Indians, 
that were counted in the last census. What do you think we'll 
be at in this next one? After this ad campaign?
    Mr. Zunigha. According to the census statistics, it was 
like 12.2 percent undercount, which is the largest out of them 
all.
    Mrs. Maloney. Largest of all. Do you think these ads will 
overcome this resistance to government interference in 
counting?
    Mr. Zunigha. No, ma'am. I think it's going to be the 
partnership effort. The ads are good. The ads are important and 
the ad campaign is important and it should not be dismissed out 
of Indian Country, but again I think it's going to be the 
education and the partnership efforts, not just the partnership 
specialists coming into Indian Country and saying here's the 
material, let me see what I can do to help out in your area. 
But it's the tribes coming forward and having their people and 
their leaders doing local community meetings and putting 
everything in the tribal paper and doing those kinds of things 
with partnership supporting. If you can increase that least 
likely to respond percentage or decrease it rather, and 
increase the likely to respond, that's when your ad campaign, 
which is already hanging out there, is going to come in and 
just remind and prompt those people as we get closer to census 
date. But the actual imagery and the look of the Indian ads and 
the things that I see happening in production now are a vast 
improvement.
    Mrs. Maloney. Thank you for your testimony.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. I really don't have any questions 
but let me just state I appreciate your testimony. It's been 
very interesting listening to you and the things that you have 
to say. I agree, I think, with your premise that while the 
advertising is going to be helpful, the most helpful process 
will more than likely, especially with the community that 
you're talking about and that you represent, will be the 
partnerships. The interaction with people will probably be the 
determinant factors as to whether or not significant 
improvement is made.
    So, I agree with your wisdom, as well as the fact that 
you're here, and I thank you very much.
    Mr. Miller. Thank you very much for today. We appreciate 
your coming and it's very productive to have these hearings. 
I'm sorry we don't have more time. I thank you for sitting 
through the first two panels.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. Without 
objection, so ordered. In case there are additional questions 
that Members may have for our witnesses, I ask unanimous 
consent for the record to remain open for 2 weeks for Members 
to submit questions for the record and for the witnesses to 
submit written answers as soon as practicable. Without 
objection, so ordered. The hearing is adjourned.
    [Whereupon, at 1:25 p.m., the subcommittee was adjourned, 
subject to the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED]61550.030

[GRAPHIC] [TIFF OMITTED]61550.031

[GRAPHIC] [TIFF OMITTED]61550.032

[GRAPHIC] [TIFF OMITTED]61550.033

[GRAPHIC] [TIFF OMITTED]61550.034

[GRAPHIC] [TIFF OMITTED]61550.035

[GRAPHIC] [TIFF OMITTED]61550.036

                                   - 

</pre></body></html>
